<html>
<title> - EMERGENCY LOGISTICS MANAGEMENT: TRANSFORMING THE DELIVERY OF DISASTER RELIEF FOR THE 21ST CENTURY</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
 EMERGENCY LOGISTICS MANAGEMENT: TRANSFORMING THE DELIVERY OF DISASTER 
                      RELIEF FOR THE 21ST CENTURY

=======================================================================


                                HEARING

                               before the

               SUBCOMMITTEE ON EMERGENCY COMMUNICATIONS,

                       PREPAREDNESS, AND RESPONSE

                                 of the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 29, 2010

                               __________

                           Serial No. 111-82

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] 



      Available via the World Wide Web: http://www.gpo.gov/fdsys/




                  U.S. GOVERNMENT PRINTING OFFICE
66-032                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                               __________

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Loretta Sanchez, California          Peter T. King, New York
Jane Harman, California              Lamar Smith, Texas
Peter A. DeFazio, Oregon             Daniel E. Lungren, California
Eleanor Holmes Norton, District of   Mike Rogers, Alabama
    Columbia                         Michael T. McCaul, Texas
Zoe Lofgren, California              Charles W. Dent, Pennsylvania
Sheila Jackson Lee, Texas            Gus M. Bilirakis, Florida
Henry Cuellar, Texas                 Paul C. Broun, Georgia
Christopher P. Carney, Pennsylvania  Candice S. Miller, Michigan
Yvette D. Clarke, New York           Pete Olson, Texas
Laura Richardson, California         Anh ``Joseph'' Cao, Louisiana
Ann Kirkpatrick, Arizona             Steve Austria, Ohio
Bill Pascrell, Jr., New Jersey       Tom Graves, Georgia
Emanuel Cleaver, Missouri
Al Green, Texas
James A. Himes, Connecticut
Mary Jo Kilroy, Ohio
Dina Titus, Nevada
William L. Owens, New York
Vacancy
Vacancy
                    I. Lanier Avant, Staff Director
                     Rosaline Cohen, Chief Counsel
                     Michael Twinchek, Chief Clerk
                Robert O'Connor, Minority Staff Director
                                 ------                                

  SUBCOMMITTEE ON EMERGENCY COMMUNICATIONS, PREPAREDNESS, AND RESPONSE

                Laura Richardson, California, Chairwoman
Eleanor Holmes Norton, District of   Mike Rogers, Alabama
    Columbia                         Pete Olson, Texas
Henry Cuellar, Texas                 Anh ``Joseph'' Cao, Louisiana
Bill Pascrell, Jr., New Jersey       Michael T. McCaul, Texas
Emmanuel Cleaver, Missouri           Peter T. King, New York (ex 
Dina Titus, Nevada                       officio)
William L. Owens, New York
Bennie G. Thompson, Mississippi (ex 
    officio)
                      Stephen Vina, Staff Director
                          Ryan Caldwell, Clerk
               Amanda Halpern, Minority Subcommittee Lead


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Laura Richardson, a Representative in Congress From 
  the State of California, and Chairwoman, Subcommittee on 
  Emergency Communications, Preparedness, and Response...........     1
The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Ranking Member, Subcommittee on Emergency 
  Communications, Preparedness, and Response.....................     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security..............................................     3

                               WITNESSES

Mr. Matt Jadacki, Assistant Inspector General, Emergency 
  Management Oversight, Office of Inspector General (OIG), 
  Department of Homeland Security:
  Oral Statement.................................................     5
  Prepared Statement.............................................     7
Mr. Eric Smith, Assistant Administrator, Logistics Management 
  Directorate, Federal Emergency Management Agency, Department of 
  Homeland Security; Accompanied by Elizabeth A. Zimmerman, 
  Deputy Associate Administrator, Office of Response and 
  Recovery, Federal Emergency Management Agency, Department of 
  Homeland Security:
  Oral Statement.................................................    11
  Prepared Statement.............................................    13
Mr. Stephen A. Irwin, Chair, Donations Management Committee, 
  National Voluntary Organizations Active In Disaster (National 
  VOAD), Director, Agency Services, Convoy of Hope:
  Oral Statement.................................................    18
  Prepared Statement.............................................    19

                                APPENDIX

Questions From Chairwoman Laura Richardson of California for Eric 
  Smith..........................................................    39
Questions From Chairman Bennie G. Thompson of Mississippi for 
  Eric Smith.....................................................    40
Question From Honorable Bill Pascrell, Jr. of New Jersey for Eric 
  Smith..........................................................    42
Questions From Chairwoman Laura Richardson of California for 
  Stephen A. Irwin...............................................    43
Question From Chairman Bennie G. Thompson of Mississippi for 
  Stephen A. Irwin...............................................    45


 EMERGENCY LOGISTICS MANAGEMENT: TRANSFORMING THE DELIVERY OF DISASTER 
                      RELIEF FOR THE 21ST CENTURY

                              ----------                              


                     Wednesday, September 29, 2010

             U.S. House of Representatives,
                    Committee on Homeland Security,
Subcommittee on Emergency Communications, Preparedness, and 
                                                  Response,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 311, Cannon House Office Building, Hon. Laura Richardson 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives Richardson, Cuellar, Pascrell, 
Thompson, Rogers, and Cao.
    Ms. Richardson. The Subcommittee on Emergency 
Communications, Preparedness, and Response will come to order. 
The subcommittee is meeting today to receive testimony on 
``Emergency Logistics Management: Transforming the Delivery of 
Disaster Relief For the 21st Century.''
    I will now recognize myself for an opening statement.
    Good morning. I would like to welcome all of our witnesses 
today and thank you for your public service. Today we will be 
discussing FEMA's efforts to transition to a 21st century 
logistics system that would incorporate modern efficiencies 
without sacrificing effective service.
    We will also learn about how charities and other NGO 
partners with FEMA distribute donated goods and services.
    Hurricane Katrina exposed the serious flaws in the FEMA's 
logistics systems, but as the 2006 Senate report on Katrina 
concluded, FEMA's logistics failures during Katrina's crisis 
was not a surprise. The systemic failures that occurred roughly 
5 years ago resulted from antiquated logistics systems, poor 
planning for transportation, staffing shortages, and the lack 
of a tracking system.
    After Hurricane Katrina, Congress provided a clear mandate 
for a new logistics system in the Post-Katrina Act.
    Essentially, we look to develop an efficient, transparent 
and flexible logistics system for procurement and delivery of 
goods and services and for real-time visibility of items at 
each point throughout the logistics system. We are here today 
to determine what type of progress FEMA has made and in this 
meeting what mandates have occurred and should occur.
    In 2005, FEMA began the process of transforming its 
logistics management by implementing a new IT system called the 
Total Asset Visibility Program. This system, now called the 
Logistics Supply Chain Management System, is intended to 
deliver better performance and accountability by providing end-
to-end transit visibility of critical assets and commodities.
    With the projected costs of $321 million, however, we must 
make sure the system delivers what FEMA really needs and what 
the public requires.
    This committee shares the concerns raised by the DHS Office 
of Inspector about the system. We look forward to hearing from 
Mr. Jadacki about the OIG's findings.
    Likewise, we also look forward to hearing from Mr. Smith 
about the system and his vision for the logistics directorate.
    Exactly 1 year ago today, September 29, 2009, a massive 
tsunami devastated the islands of American Samoa. In a matter 
of minutes, people on that island lost everything, homes, 
belongings and loved ones. Nearly 200 people died; 2,000 were 
left homeless; and another 6,000 American Samoans went without 
power.
    As the Representative of the 37th Congressional District, 
my constituents were directly affected by this tragedy. As home 
to approximately 25 percent of the entire American Samoan 
population living in the United States, my district is home to 
the largest concentration of Samoans in America. In response to 
the disaster in Samoa, I traveled to American Samoa and Samoa 
in October 2009 to observe the extent of the devastation and to 
deliver relief supplies contributed by my constituents.
    I also worked with Representative Eni Faleomavaega to 
coordinate efforts in sending relief supplies.
    Fortunately, we saw an outpouring of support for those in 
need. In my district alone, roughly 60 local organizations 
collected 180,000 pounds of essential items to send to victims 
of the tragedy. With the help of Congressman Faleomavaega and 
Secretary Clinton, a cargo plane airlifted about 90,000 pounds 
of supplies, roughly half of the collected amount, to the 
devastated region.
    While the end result was positive, the red tape that the 
good people of my community and, I hate to say, myself, as an 
elected official, that we had to endure was astonishing and 
disturbing. When tragedy strikes, people want to help. It is 
just that simple. We must have better avenues to facilitate the 
generosity of the American people.
    I am looking forward to hearing from Mr. Irwin about the 
efforts of the National voluntary organizations active in 
disasters to deliver donated goods to people in need. As our 
Federal Government looks to further rely upon charities across 
the country for disaster relief, we must ensure that the 
countless volunteers and all the donated supplies are viewed as 
a critical part of the solution and not considered a liability.
    In closing, as we talk about the delivery of the essential 
supplies to those in need by FEMA, I would be remiss for the 
public who might be watching if I didn't talk about our own 
responsibility as individuals to prepare for disasters. For 
example, individuals across the country can be more prepared 
for the next disaster by making a family emergency plan, 
assembling an emergency supply kit, and learning about possible 
threats in their own area.
    While National Preparedness Month 2010 is coming to a close 
with the end of September, our efforts to be prepared for 
disasters should never cease. I encourage everyone to visit 
FEMA's ready.gov website to learn more about the steps you can 
take to prepare yourself and your family, your business, and 
our community.
    With that, I thank the witnesses for being here, and I look 
forward to your testimony.
    The Chairwoman now recognizes the Ranking Member of the 
subcommittee, the gentleman from Alabama, Mr. Rogers, for his 
opening statement.
    Mr. Rogers. Thank you, Madam Chairwoman.
    Thank you for having this hearing, and I want to thank our 
witnesses for taking the time to prepare for this and to be 
here. It is very much appreciated by us and helpful to us. Now 
this hearing will provide an opportunity to examine the 
effectiveness and efficiency of logistics management systems 
currently in place during disaster response.
    In July 2010, the Department of Homeland Security's Office 
of Inspector General issued a report on logistics management 
and offered recommendations for how the Federal Emergency 
Management Agency can improve its logistics capability. The IG 
noted a number of improvements in this area, including 
increased staffing levels, training, better coordination, and 
outreach activities.
    At the same time, the IG highlighted that on-going staffing 
and budget challenges have prevented the same type of 
improvements from being made at State and local levels in many 
cases. It is important for us to look for ways to improve 
logistics management at all levels by offering guidance and 
grant funding to State and locals in order to accomplish these 
goals. I look forward to hearing from Mr. Smith and Mr. Jadacki 
on the progress being made with respect to the logistics 
transformation expected to be completed in the next several 
years. I am also interested in discussing any remaining 
challenges to advancing the Single-Point Ordering system 
recommended by the IG as well as the status of in-transit 
visibility programs underway at FEMA. Finally, I look forward 
to hearing from Ms. Zimmerman, from FEMA's office of response 
and recovery; Mr. Irwin, from the National Voluntary 
Organizations Active in Disaster, on the organization's on-
going efforts in donation management and delivery of these 
donated goods and services to disaster victims.
    Logistics is a critical piece of both preparedness for and 
response to disasters. We must ensure that logistics management 
directorate within FEMA is making progress and has staffing 
resources and partnerships it needs to store, transport, and 
deliver supplies in the most efficient manner possible.
    Once again, I want to thank the witnesses, and I look 
forward to your testimony.
    Ms. Richardson. The Chairwoman now recognizes the Chairman 
of the Homeland Security committee, who has had a long 
commitment to this issue, the gentleman from Mississippi, Mr. 
Thompson, for an opening statement.
    Mr. Thompson. Thank you very much, Chairwoman Richardson, 
for calling this important hearing to discuss FEMA's logistics 
management. The distribution and management of goods and 
services during disasters is critically important to meeting 
the needs of disaster victims.
    Two years ago, this subcommittee held a rare joint hearing 
with the Senate Homeland Security and Government Affairs 
Committee to examine the logistics management challenges 
identified after Hurricane Katrina. Today, we are here to see 
if FEMA has made good on its promises to take corrective 
action.
    As the Chairwoman described, there were many obstacles 
hindering FEMA's response during Katrina, including the lack of 
a robust and modern logistics IT system. FEMA's new Logistics 
Supply Chain Management System, previously called a Total Asset 
Visibility System, is supposed to guide the agency's delivery 
of disaster relief well into the 21st century. At an estimated 
price tag of over one quarter of a billion dollars, $321 
million, to be exact, it most certainly should with that price 
tag.
    Astonishingly, however, nearly one-third of the cost, $110 
million, is designated for operation and maintenance over 5 
years. With O&M costs so high, I question whether we are 
building a system that is expected to fail.
    This committee will be conducting vigorous oversight on 
this system because we cannot afford to have delays and cost 
overruns like other large IT projects at DHS.
    As with most homeland security issues, however, technology 
alone will not solve every issue. In my home State of 
Mississippi, for example, we witnessed mass distribution of 
pre-staging problems during Katrina which was more a result of 
more poor strategic planning and management.
    Thankfully, the new logistics directorate is larger than 
ever with over 124 full-time positions and a dozen more 
transitioning from part-time posts. We welcome this added 
expertise. But with this large a cadre comes greater 
expectations.
    Surely we will agree that we can do a better job of 
procuring, storing, and disposing of FEMA's temporary housing 
units and trailers. As you know, contaminated Katrina trailers 
appeared again along the Gulf Coast during the oil spill clean-
up efforts. These missteps demonstrate that we must rethink the 
way we manage FEMA trailers.
    Like other disasters, the oil spill clean-up efforts 
utilized countless volunteers and relied heavily on the 
generosity of the American people. Today, FEMA utilizes the 
National Donations Management Network for channeling donations 
to those in need which is a portal to an on-line Aidmatrix 
Networks. This web-based application is used by charities and 
States across the country to match individual donations with 
disaster needs. I look forward to hearing from our witnesses on 
how the Aidmatrix Network is progressing and how FEMA logistics 
and charitable organizations work together during disasters.
    Madam Chairwoman, I would also like to say, at the point 
when we did have Katrina, there was only one operating 
agreement in force, and that was with the Red Cross. This 
committee was provided a number of organizations listed that 
had been negotiated with, but once we checked, most of them had 
not executed agreements nor had there been any training. So I 
would look forward to getting some of that question and answer, 
too.
    I yield back the balance of my time.
    Ms. Richardson. Thank you, Mr. Chairman.
    Other Members of the subcommittee are reminded that, under 
the committee rules, opening statements may be submitted for 
the record.
    I now welcome our panel of witnesses.
    Our first witness, Mr. Matt Jadacki, Assistant Inspector 
General for the Office of Emergency Management Oversight, under 
the Office of the Inspector General at the Department of 
Homeland Security, is now with us today.
    Prior to joining DHS in 2005, Mr. Jadacki was the chief 
financial officer and chief administrative officer of the 
National Weather Service, a component of the National Oceanic 
and Atmospheric Administration.
    Our second witness, Mr. Eric Smith, joined FEMA in 2007 as 
the assistant administrator for the Logistics Management 
Directorate. Mr. Smith came to FEMA from his last military 
Active Duty assignment as the senior executive assistant to the 
director of the Defense Logistics Agency. He retired as a 
colonel after 24 years in the Army and has a background in 
multifunctional logistics management, planning, and operations.
    Accompanying Mr. Smith for the purpose of questioning is 
Ms. Elizabeth Zimmerman, deputy associate administrator for 
response and recovery. This office is responsible for the 
coordination and integration of FEMA's response, recovery, and 
logistics programs and operations. Ms. Zimmerman brings decades 
of State-level emergency management experience, most previously 
serving as the assistant director of recovery for the State of 
Arizona.
    Our final witness is Mr. Stephen Irwin, director of agency 
services at Convoy of Hope in Springfield, Missouri. Mr. Irwin 
also serves as the chair of the Donations Management Committee 
for the National Voluntary Organizations Active in Disaster, 
National VOAD. In this role, he works with the National 
organizations in coordinating donations that are disbursed 
during the active disasters across the United States.
    We are pleased to have all of you present and greatly 
appreciate your testimony today. Without objection, the 
witnesses' full statements will be inserted into the record.
    Before I defer to Mr. Jadacki, I would just urge you to 
please keep to the time. We might, we are looking at when votes 
might occur, and there could be a series of 30 votes. So the 
sooner we can hopefully stay on track, we might be able to get 
you out before it is evening time. So your help with this would 
be greatly appreciated.
    I now ask each witness to summarize his or her statement 
for 5 minutes, beginning with Mr. Jadacki.

    STATEMENT OF MATT JADACKI, ASSISTANT INSPECTOR GENERAL, 
  EMERGENCY MANAGEMENT OVERSIGHT, OFFICE OF INSPECTOR GENERAL 
             (OIG), DEPARTMENT OF HOMELAND SECURITY

    Mr. Jadacki. Thank you. Good morning, Chairwoman 
Richardson, Ranking Member Rogers and Members of the 
subcommittee. My name is Matt Jadacki. I am the Assistant 
Inspector General for the Department of Homeland Security, 
Office of Emergency Management Oversight. Thank you again for 
the opportunity to discuss our report, ``Federal Emergency 
Management Agency's Logistics Management Process for Responding 
to Catastrophic Disasters.''
    Logistics deal with the procurement, supply, and 
maintenance of equipment and the provision of facilities, the 
movement, evacuation, and support and supply of personnel and 
services in related matters. In carrying out its role as 
National Logistics Coordinator, FEMA's Logistics Management 
Directorate is responsible for coordinating with public- and 
private-sector partners to provide a truly integrated approach 
to disaster logistics.
    Our report was the first comprehensive review of FEMA's 
Logistic Management Directorate since it was elevated from a 
branch within the former response division to the directorate 
level. Our assessment of seven key functional areas reveal that 
FEMA's logistics have made substantial progress but continues 
to face challenges as it enhances its capabilities.
    I will briefly discuss each of the seven areas, including 
staffing, planning, coordinating, sourcing, tracking 
deliveries, communications, and evaluating performance.
    FEMA relies on the staffing combination of permanent full-
time employees, temporary employees to respond to incidents. 
Since 2007, FEMA has nearly tripled its full-time logistics 
staff to 150 personnel, moved positions to the field and 
increased its temporary workforce. Staff have been trained in 
multiple areas, and a credentialing plan has been established 
which will standardize training, experience, and skill 
requirements for logistics personnel serving in disaster-
related positions.
    FEMA plans and coordinates exercises to enhance readiness; 
conducts after-action reviews with States; and implements 
corrective measures. Regional offices determine likely disaster 
scenarios within the regions and serve as the primary conduit 
between FEMA and State and local emergency responders.
    Because of staffing and budget restraints, State and local 
governments have not kept pace with Federal progress. FEMA 
needs to explore ways to identify State and local shortcomings 
and help those jurisdictions enhance their capabilities.
    FEMA relies on strong collaboration with other Federal 
agencies, nongovernmental organizations, and State and local 
governments and the private sector to establish an integrated 
disaster support supply chain. FEMA's regional offices are 
responsible for coordinating with State, local, and Tribal 
governments, as well as channeling information between State 
and local responders and FEMA headquarters. Through its 
regional offices, FEMA is working with the States to 
communicate and coordinate through the implementation of its 
logistics capability tool.
    FEMA has four main sourcing methods for acquiring disaster-
related commodities: Warehousing, interagency agreements, 
mission assignments, and contracts. Initial response resources 
are prepositioned in areas with high risks of hurricanes and 
earthquakes. Interagency agreements assist in the supply of 
water and meals. To expedite the delivery of Federal 
assistance, FEMA has developed hundreds of prescripted mission 
assignments with 30 Federal partners to provide critical 
services. Contracts are used to provide services, such as 
ambulance and bus evacuation, electrical generator maintenance, 
and temporary housing support.
    The existing flawed decentralization sourcing process is 
being replaced by a Single-Point Ordering system.
    FEMA is implementing the Logistics Supply Chain Management 
System, which is scheduled to be operational in 2012. It is 
unclear to us whether controls are in place to enhance, to 
ensure the system will meet the needs of FEMA and its partners 
to provide in-transit visibility for commodities. The Logistics 
Management Directorate needs to work closely with the chief 
information officer to determine if the planned system has the 
ability to support the logistics operation.
    In response to communication issues that plague the 
response of the 2005 hurricanes, FEMA holds weekly 
teleconferences with regions and Federal agencies and partners 
and periodic summits featuring presentations by the Corps of 
Engineers and the Defense Logistics Agency and other Federal 
organizations.
    To evaluate performance, FEMA conducts after-action 
reviews, monitors corrective actions, and incorporates lessons 
learned into policies, training, and standard procedures.
    To summarize, FEMA's logistics has made great strides to 
improve its logistics capabilities by increasing staff levels, 
training and developing personnel, enhancing coordination among 
Federal, State, and local governments and nongovernmental 
organizations and the private sector, developing plans and 
exercises to improve readiness, utilizing interagency 
agreements and contracts for needed commodities, conducting 
meetings and teleconferences with logistic partners, and 
reviewing and evaluating performance.
    Given the recent initiatives, FEMA is now better prepared 
than at any previous time dealing with the catastrophic 
disaster.
    However, more needs to be done. We recommended that the 
FEMA administrator evaluate whether the new system being 
developed will support logistics operations as planned, work 
with State partners to identify and overcome State and local 
logistics deficiencies, and implement the Single-Point Ordering 
concept.
    Madam Chairwoman, this concludes my prepared remarks. I 
welcome any questions that you or the Members may have. Thank 
you.
    [The statement of Mr. Jadacki follows:]
                   Prepared Statement of Matt Jadacki
                           September 29, 2010
    Good afternoon, Madam Chairwoman and Members of the subcommittee. 
My name is Matt Jadacki and I am the Assistant Inspector General for 
the Department of Homeland Security (DHS), Office of Inspector General 
(OIG), Office of Emergency Management Oversight (EMO). Thank you for 
the opportunity to discuss our report: Federal Emergency Management 
Agency's (FEMA) Logistics Management Process for Responding to 
Catastrophic Disasters.\1\
---------------------------------------------------------------------------
    \1\ FEMA's Logistics Management Process for Responding to 
Catastrophic Disasters (OIG-10-101; July 2010).
---------------------------------------------------------------------------
    During the response to Hurricane Katrina, FEMA provided record 
levels of support to survivors and emergency responders. Life-saving 
and life-sustaining commodities and equipment were delivered to the 
affected areas; personnel increased significantly in a short period of 
time to support response efforts and provide assistance; and assistance 
was provided quickly in record amounts, sometimes through innovative 
means. Our 2006 report, A Performance Review of FEMA's Disaster 
Management Activities in Response to Hurricane Katrina,\2\ identified 
that the lack of an asset ordering process, inexperienced and untrained 
personnel, unreliable communications, and insufficient internal 
management controls demonstrated a continued need for improvement in 
how FEMA supports its response activities and delivery of assistance. 
FEMA must strike a balance between maintaining a reasonable level of 
preparedness and determining the prudent use of tax dollars to 
purchase, warehouse, and rotate commodities; purchase and maintain 
equipment and IT systems; and train and equip emergency teams in 
anticipation of major disasters or emergencies regardless of cause, 
size, or complexity. As a result, FEMA's ability to track and source 
needed resources is key to fulfilling its mission.
---------------------------------------------------------------------------
    \2\ A Performance Review of FEMA's Disaster Management Activities 
in Response to Hurricane Katrina (OIG-06-32; March 2006).
---------------------------------------------------------------------------
       assessment of fema logistics management directorate (lmd)
    We conducted an in-depth assessment to determine the status of 
LMD's strategic plans, accomplishments, partnerships, performance, and 
existing challenges, and determine LMD's progress in preparing for the 
next catastrophic disaster. Logistics deals with the procurement, 
supply, and maintenance of equipment and the provision of facilities; 
the movement, evacuation, and supply/support of personnel and services; 
and related matters. This is the first comprehensive review of FEMA's 
LMD since it was elevated from a branch within the former Response 
Division to the directorate level. We reviewed the following key 
functional areas:
  <bullet> Staffing, Training, and Credentialing;
  <bullet> Planning;
  <bullet> Coordinating;
  <bullet> Sourcing;
  <bullet> Tracking and Timing Deliveries;
  <bullet> Communications;
  <bullet> Evaluating Performance.
    Our assessment revealed that FEMA Logistics has made substantial 
progress but continues to face challenges as it enhances capabilities. 
In carrying out its role as the National Logistics Coordinator, LMD is 
responsible for coordinating with public and private sector partners to 
provide a truly integrated approach to disaster logistics. 
Consequently, we presented FEMA with two recommendations aimed at 
improving FEMA's preparedness for catastrophic incidents. FEMA 
concurred with the recommendations and is developing a corrective 
action plan to address our concerns.
                 staffing, training, and credentialing
    FEMA relies on a staffing combination of permanent full-time 
employees, temporary employees, and contractors to respond to 
incidents. Since FEMA reorganized in 2007, it nearly tripled the number 
of permanent full-time logistics staff from 54 to 150, and reprogrammed 
15 headquarters positions to the field, where there was a greater need. 
In addition, FEMA has increased its disaster temporary workforce, 
including hundreds of Cadre of On-call Response Employees (CORE).
    FEMA LMD has partly addressed staffing shortfalls through its 
training strategy. Staff rotations were arranged in order to train 
employees in multiple areas, and additional systems training was 
implemented. FEMA also launched the Credentialing Plan, which aims to 
standardize the training, experience, and skill requirements for 
logistics personnel serving in disaster-related positions. The plan 
provides current and prospective workforce members with a clear 
understanding of the specific skill sets and experiences required and 
concise guidelines for each position. Training began at the end of 
2009, with a goal of having 85 percent of all disaster assistance 
employees fully certified by the end of 2010.
                                planning
    In conjunction with FEMA headquarters and regions, LMD develops 
plans and coordinates exercises aimed at identifying limitations and 
enhancing readiness. Using lessons learned during exercises, LMD works 
with FEMA regional offices and State responders to conduct after-action 
reviews and implement corrective measures. The regional offices also 
determine likely disaster scenarios within their respective regions, 
taking into account the infrastructure, resources, and preparedness of 
the State, local, and Tribal governments to respond to incidents. The 
regional offices are the primary conduit through which information 
flows between FEMA and emergency responders at the State and local 
levels. In 2008, FEMA established Regional Planning Teams to assist its 
regional offices in supporting their State, local, and Tribal partners.
    Planning activities are closely coordinated with other FEMA 
directorates that set planning milestones, establish working groups, 
and conduct training exercises. FEMA also coordinates plans with its 
Federal logistics partners: The General Services Administration, the 
Defense Logistics Agency, and the U.S. Army Corps of Engineers.
    Despite progress at the Federal level, corresponding improvements 
in many of the State and local governments have lagged behind due to 
staffing and budget restrictions. FEMA is concerned that budget 
constraints in the current economic climate will hinder the ability of 
State and local governments to participate in future planning and 
exercises. FEMA is aware that these deficiencies detract from the 
concept of community integration. FEMA needs to explore alternative 
ways to identify State and local shortcomings and to help those 
jurisdictions to enhance their capabilities.
                              coordinating
    As the National Logistics Coordinator, FEMA relies on strong 
collaboration with other Federal agencies, nongovernmental 
organizations, State and local governments, and the private sector to 
establish integrated disaster support supply chains. To improve 
coordination throughout the logistics process, FEMA conducted the first 
National Logistics Coordination Forum in March 2008, attended by 
representatives from all supply chain partners. A subset of this forum, 
the Distribution Management Strategy Working Group, was established to 
analyze and develop a comprehensive distribution and supply chain 
management strategy. In April 2009, FEMA issued guidance for 
integrating the operations and logistics functions at the incident, 
regional, and headquarters levels.
    FEMA regional offices are responsible for coordinating with State, 
local, and Tribal governments as well as channeling information between 
State and local responders and FEMA headquarters. The regional offices 
are also responsible for determining likely disaster scenarios in their 
geographic areas and assessing their State and local counterparts' 
preparedness.
    Through its regional offices, FEMA continues to work with the 
States, encouraging communication and coordination through 
implementation of their Logistics Capability Tool. FEMA has also been 
actively encouraging States to self assess their logistics functions.
                                sourcing
    FEMA relies on four different sourcing methods to acquire 
commodities needed to respond to a disaster: (1) Warehoused goods; (2) 
interagency agreements; (3) mission assignments; and (4) contracts.
    Warehoused goods are controlled by FEMA and are immediately 
available when incidents occur. However, most warehoused goods have a 
limited shelf life and may have to be discarded if not used within that 
shelf life. Warehoused goods include Initial Response Resources, which 
are intended to sustain life and prevent further property damage. Goods 
in this category consist of items such as water, meals, cots, tarps, 
and blankets.
    To ensure that Initial Response Resources are available where 
needed, they are strategically stored through FEMA's Pre-positioned 
Disaster Supplies Program. Initial Response Resources are pre-
positioned at areas with high hurricane and earthquake risk, as well as 
at various locations ready for transport.
    FEMA uses interagency agreements to access contracts held by other 
Federal agencies. For example, FEMA has interagency agreements with the 
Defense Logistics Agency and GSA for a number of items, including water 
and emergency meals.
    Mission assignments are work orders issued by FEMA to other Federal 
agencies that direct the completion of a specific task and are intended 
to meet urgent, immediate, and short-term needs. They allow FEMA to 
quickly task Federal partners to provide critical resources, services, 
or expertise. To expedite the delivery of Federal assistance, FEMA has 
developed hundreds of pre-scripted mission assignments with 30 Federal 
agencies. FEMA also uses contracts, which can be activated following an 
incident to provide services such as ambulance and bus evacuation, 
facilities support, electrical generator maintenance, and temporary 
housing support.
    Our 2009 report, FEMA's Sourcing for Disaster Response Goods and 
Services,\3\ examined FEMA's sourcing. We concluded that the existing 
decentralized process suffered from inefficiencies, including poorly 
integrated information systems, and was susceptible to duplication and 
waste. FEMA agreed with our findings and is working with its partners 
to develop processes to make the planned Single-Point Ordering system a 
reality. Like some of the other initiatives, this system is not 
expected to be fully implemented for several years.
---------------------------------------------------------------------------
    \3\ FEMA's Sourcing for Disaster Response Goods and Services (OIG-
09-96; August 2009).
---------------------------------------------------------------------------
    tracking and timing deliveries with the logistics supply chain 
                           management system
    As part of the agency's restructuring, FEMA set out to transition 
to a ``21st century'' logistics system that would incorporate modern 
efficiencies, allowing FEMA to store and ship fewer supplies, yet have 
greater assurance that they will arrive when and where needed.
    As a first step, in 2005, FEMA began implementing the Total Asset 
Visibility (TAV) program, which was designed to provide asset and in-
transit visibility as well as electronic order management for all 
primary commodities.
    The initial attempt to implement this program cost FEMA $117 
million over 4 years. FEMA transitioned the program into the Logistics 
Supply Chain Management System, or Phase II, which is designed to 
address earlier shortcomings such as information transfer, systems 
interaction, data entry, and data accuracy issues while providing data 
access to Federal, State, Tribal, and local logistics partners. Phase 
II is expected to cost $93.8 million and be operational by 2012. FEMA 
estimates that the continued operation and maintenance will cost $109.9 
million, through 2017.
    Given that the initial project had to be directed into a second 
phase, it is unclear whether sufficient quality controls and assurances 
are in place to evaluate whether the system is being developed 
according to specifications, and whether it will deliver what the 
agency needs. We raised similar concerns about other information 
technology systems in a 2008 report titled, Logistics Information 
Systems Need to Be Strengthened at the Federal Emergency Management 
Agency\4\ and a 2006 report titled, FEMA's Progress in Addressing 
Information Technology Management Weaknesses.\5\
---------------------------------------------------------------------------
    \4\ Logistics Information Systems Need To Be Strengthened at the 
Federal Emergency Management Agency, (OIG-08-60; May 2008).
    \5\ FEMA's Progress in Addressing Information Technology Management 
Weaknesses, (OIG-07-017; December 2006).
---------------------------------------------------------------------------
    FEMA faces challenges regarding its inability to communicate 
directly with the information systems of its Federal partners. Because 
of the importance placed on the yet-to-be completed Logistics Supply 
Chain Management System and because it is expected to cost nearly a 
quarter billion dollars over the 7-year development stage, it is 
important that LMD consult with the FEMA Chief Information Officer to 
determine whether the proposed Phase II has the ability to support 
logistics operations, whether it is progressing on schedule and whether 
an independent evaluation of the system should be conducted.
                             communications
    Recognizing that communication was the single largest challenge 
during the 2005 hurricanes, the LMD has taken a number of positive 
steps. To facilitate communication, it holds weekly teleconferences 
between headquarters and regional staff, as well as other Federal 
agencies involved in logistics. Several regional managers expressed 
satisfaction with recent communications initiatives, reporting good 
interactions between headquarters and the field, improved 
communications, active regional involvement, and finally having ``a 
voice at the headquarters level.''
    LMD also hosts periodic ``summit'' meetings featuring presentations 
by FEMA and other Federal partners, including GSA, the Defense 
Logistics Agency, and the U.S. Army Corps of Engineers. These meetings 
are a platform to discuss on-going initiatives, solicit ideas, and 
discuss lessons learned. Recent discussions have focused on: (1) Other 
Federal agencies' roles to leverage buying power for improved response 
and lower costs; (2) providing emergency resources; and (3) deploying 
facilities for storing and distributing emergency commodities.
                         evaluating performance
    Following each exercise or actual incident, LMD conducts after-
action reviews to discuss with supply chain partners any challenges 
encountered, where corrective actions are needed, and what best 
practices should be applied moving forward. Corrective actions are 
monitored, and when successful, incorporated into procedures, policies, 
and training.
    Through face-to-face meetings, FEMA works with regional logistics 
staff to identify areas needing attention, including the States' 
capabilities. Plans are then designed and implemented to address areas 
of need.
    We have attended recent after-action reviews and read the resulting 
reports. We believe that LMD continues to build on experiences and is 
positioned for continued improvement.
                               conclusion
    To summarize, FEMA Logistics has made great strides to improve its 
logistics capabilities by: (1) Increasing staff levels; (2) training 
and developing personnel; (3) enhancing coordination among Federal, 
State, and local governments, nongovernmental organizations, and the 
private sector; (4) developing plans and exercises to improve 
readiness; (5) utilizing interagency agreements and contracts for 
needed commodities; (6) conducting meetings and teleconferences with 
logistics partners; and (7) reviewing and evaluating performance. Given 
the recent initiatives, FEMA is better prepared now than at any 
previous time for dealing with a catastrophic disaster.
    To continue this progress, we recommended that the FEMA 
Administrator: (1) Evaluate whether the system being developed is on 
track to support logistics operations, (2) work with State partners to 
identify and overcome State and local logistical deficiencies, and (3) 
implement the single-point ordering concept prescribed by the National 
Incident Management System, coordinating all sourcing through the 
Logistics Section.
    Madam Chairwoman, this concludes my prepared remarks. I welcome any 
questions that you or the Members may have. Thank you.

    Ms. Richardson. Thank you for your testimony.
    I now recognize Mr. Smith to summarize his statement for 5 
minutes.

  STATEMENT OF ERIC SMITH, ASSISTANT ADMINISTRATOR, LOGISTICS 
 MANAGEMENT DIRECTORATE, FEDERAL EMERGENCY MANAGEMENT AGENCY, 
 DEPARTMENT OF HOMELAND SECURITY; ACCOMPANIED BY ELIZABETH A. 
 ZIMMERMAN, DEPUTY ASSOCIATE ADMINISTRATOR, OFFICE OF RESPONSE 
 AND RECOVERY, FEDERAL EMERGENCY MANAGEMENT AGENCY, DEPARTMENT 
                      OF HOMELAND SECURITY

    Mr. Smith. Good morning, Madam Chairwoman Richardson, 
Ranking Member Rogers and distinguished Members of the 
subcommittee.
    My name is Eric Smith, assistant administrator for 
logistics at FEMA. I am a retired Army logistics officer with 
over 24 years of experience as a multi-function logistician 
specializing in logistics management, planning, and operations.
    Ms. Elizabeth Zimmerman, deputy associate administrator, 
Office of Response and Recovery, joins me today to address any 
questions related to donations management.
    We are honored to appear before you today on behalf of 
FEMA.
    As you know, today marks the 1-year anniversary of the 
earthquake and tsunami in American Samoa. The devastation that 
occurred there serves as a reminder of the enormity of our task 
as well as the imperative that we get it right.
    The purpose of our testimony today is to convey two 
points--first the significant progress we have made since 
Hurricane Katrina is a direct result of the strong 
relationships we have established with FEMA regions, States, 
and our interagency partners; and second, we cannot and will 
not be complacent in establishing an effective supply chain 
management system.
    During Hurricane Katrina, I served as the operations center 
director at the Defense Logistics Agency and witnessed FEMA's 
reactive supply chain operations firsthand. The shortfall in 
FEMA's planning and sustainment capability resulted in 
misplaced shipments, spoiled food, and other wasted resources 
needed to save and sustain lives.
    In 2006, Congress passed the Post-Katrina Emergency 
Management Reform Act requiring FEMA to develop an efficient, 
transparent, and flexible logistics system for the procurement 
and delivery of goods and services. In 2007, FEMA responded by 
elevating logistics from a branch level operation to a full-
spectrum logistics organization by creating the Logistics 
Management Directorate.
    Since 2007, we have implemented a number of initiatives to 
include tripling the number of permanent full-time logistics 
staff, improving our capability to manage the entire supply 
chain process, and issuing policy, procedure, and guidance 
documents so that all parties are on the same page.
    We also began to foster partnerships at the Federal, State, 
and local levels that proved to be instrumental to the 
effectiveness of our logistics operations.
    FEMA is fully engaged with our Federal Government partners. 
We are co-leads with the General Services Administration for 
the National Response Framework's Emergency Support Function 7, 
Logistics Management and Resource Support. FEMA also serves as 
the National Logistics Coordinator helping to foster a unique 
interagency supply chain partnership between FEMA, GSA, United 
States Northern Command, the Defense Logistics Agency, United 
States Army Corps of Engineers, and the National Guard Bureau.
    We leverage the expertise and capability of our Federal 
partners to improve and sustain our supply chain operations. 
This level of interagency coordination allows us to be good 
stewards of Federal dollars by eliminating readiness costs and 
ensuring that we pay for services only at the time of request.
    We also help restore effective economies by identifying 
local vendors and buying from disaster-impacted communities as 
much as possible. Knowledge of private sector capability allows 
us to partner with, rather than compete against, local 
businesses.
    Most importantly, we have seen positive results because of 
our improved planning efforts and the ability to tap into the 
existing capabilities of our interagency partners.
    In 2008, our concepts were put to test through a variety of 
disaster response scenarios, such the Midwest floods, 
Hurricanes Dolly, Gustav, and Ike, and the California 
wildfires. That year FEMA obligated over $1 billion in logistic 
support and services.
    Because of the changes we have made, a July 2010 Department 
of Homeland Security Inspector General report stated that FEMA 
has made great strides to improve its logistics capability, and 
given recent initiatives, FEMA is better prepared now than at 
any time previous for dealing with catastrophic disasters.
    We are certainly proud of the progress we have made since 
Hurricane Katrina, but we always strive to do better. We agree 
with the recommendations made by the Inspector General to 
further improve FEMA logistics, and we are acting deliberately 
to implement them. We continue to make upgrades to our 
automated capability by implementing the Logistics Supply Chain 
Management System. We are also working with State partners to 
identify local logistics challenges and solutions by 
facilitating logistics capability assessment tool workshops, 
which provide an automated means for States to self-assess 
their logistics maturity.
    Congress's continued commitment to FEMA's mission is vital 
to improving our logistics capability. Moving forward, we will 
continue to emphasize planning. We will enhance our interagency 
partnerships. We will improve our supply chain management 
efficiency.
    Thank you, again, for the opportunity to testify before you 
today. Ms. Zimmerman and I are happy to answer any questions 
you may have.
    [The statement of Mr. Smith follows:]
                    Prepared Statement of Eric Smith
                            i. introduction
    Good morning Chairwoman Richardson, Ranking Member Rogers, and 
distinguished Members of the subcommittee. My name is Eric Smith, and I 
am the Federal Emergency Management Agency's (FEMA) Assistant 
Administrator for the Logistics Management Directorate. I am also a 
retired Army Officer with over 24 years of experience in the areas of 
logistics management, planning, and operations. It is an honor to 
appear before you today on behalf of FEMA.
    We appreciate this subcommittee's attention to the issue of 
logistics, because the treatment of this issue has a powerful impact on 
our agency's ability to conduct effective response and recovery 
efforts. Comprehensive planning is central to the successful response 
to an emergency or disaster. In the Logistics Management Directorate, 
we are responsible for ensuring the appropriate and timely provision of 
initial response resources.
    The devastation of Hurricanes Katrina and Rita overwhelmed the 
capacity of Federal, State, and local governments to respond and 
recover. The severe devastation and lack of adequate communication led 
to serious logistical failures, including misplaced shipments, spoiled 
food, and wasted life-sustaining resources.
    Through FEMA and Congress' shared commitment to ensure that such 
breakdowns do not occur in future disasters, FEMA has made many 
improvements since Hurricanes Katrina and Rita to improve FEMA's 
logistics program, including the implementation of a logistics 
provision in the Post-Katrina Emergency Management Reform Act (PKEMRA) 
of 2006. As a July 2010 OIG report (OIG-10-101) states, FEMA ``has made 
great strides to improve its logistics capability.'' The report 
highlighted improvements in increasing staff levels; training and 
development of personnel; enhanced coordination among Federal, State, 
and local governments, NGOs and the private sector; development of 
plans and exercises to improve readiness; utilization of interagency 
agreements and advanced contracts for commodities; hosting meetings 
with logistics partners where we share and discuss best practices, 
lessons learned and new initiatives; and our process of reviewing and 
evaluating performance immediately following an incident. FEMA now does 
all of these things on a regular basis. As a result, the July 2010 OIG 
concluded that ``given these recent initiatives, FEMA is better 
prepared now than at any previous time for dealing with a catastrophic 
disaster.''\1\
---------------------------------------------------------------------------
    \1\ Department of Homeland Security Office of Inspector General, 
``FEMA's Logistics Management Process for Responding to Catastrophic 
Disasters,'' OIG-10-101 (July 2010).
---------------------------------------------------------------------------
    We are proud of these improvements and the acknowledgement in the 
OIG Report, but we recognize that there is more work to do. We must 
constantly evaluate whether our logistics support, services and 
operations are up to the task of facilitating a robust response to any 
disaster or emergency. We will continue to make the improvements 
necessary for a thorough and speedy response.
          ii. mission of the logistics management directorate
    Prior to Hurricanes Katrina and Rita, logistics within FEMA was a 
branch-level operation and logistics functions such as planning and 
delivery of disaster commodities occurred only in the aftermath of a 
disaster or emergency.
    In 2006, Congress passed PKEMRA, requiring, among other things, 
that FEMA ``develop an efficient, transparent, and flexible logistics 
system for procurement and delivery of goods and services necessary for 
an effective and timely response to natural disasters, acts of 
terrorism, and other man-made disasters and for real-time visibility of 
items at each point throughout the logistics system.'' Recognizing the 
need to improve logistics capabilities, FEMA elevated logistics from a 
branch-level operation to a full directorate with the creation of the 
Logistics Management Directorate (LM). Earlier this year, FEMA took an 
additional step to ensure that logistics is organizationally aligned 
with and fully integrated into response and recovery operations.
    LM is FEMA's major program office responsible for the policy, 
guidance, standards, execution, and governance of logistics support, 
services, and operations. Its mission is to provide an efficient, 
transparent, and flexible logistics capability for the procurement and 
delivery of goods and services to ensure an effective and timely 
response to disasters. Also, pursuant to the National Response 
Framework, FEMA's LM serves as co-lead for Emergency Support Function 7 
(Logistics Management and Resource Support) along with the General 
Services Administration (GSA). As the National Logistics Coordinator, 
LM has also helped to foster a strong and unique interagency 
partnership between FEMA, GSA, U.S. Northern Command (NORTHCOM), the 
Defense Logistics Agency and the U.S. Army Corps of Engineers, to 
develop a National support concept based on collaboration, 
coordination, communications, and transparency.
    As an organization, LM is organized around four core competencies: 
Logistics Plans & Exercises develops and implements cohesive and 
synchronized logistics plans and exercises to achieve both short- and 
long-term readiness requirements; Logistics Operations manages and 
executes the coordination, communication, tracking, and reporting for 
all hazards operations and serves as the central reporting element for 
the National Response Coordination Center on all logistics actions and 
operational activities; Distribution Management coordinates the 
agency's warehouse facilities and transportation systems used to 
receive, store, maintain, issue, distribute and track supplies, 
services, material and equipment; and Property Management provides 
industry standard quality assurance, customer assistance and technical 
reviews of property accountability, inventory services to distribution 
centers and staging areas, and oversight of disposal and donations of 
agency disaster funded supplies and equipment.
              iii. how fema achieves its logistics mission
    The progress we have made over the past several years in enhancing 
our logistics capability is the result of a great deal of work and 
focus on FEMA's part. I would like to share a few of the ways in which 
we have worked to achieve our logistics mission.
Personnel
    An effective logistics operation depends on a trained and talented 
workforce. Since 2007, FEMA has almost tripled the number of permanent 
full-time logistics staff and has reprogrammed fifteen headquarters 
positions to the field in order to enhance the regional logistics 
response capability, which improves the quality of our overall 
response.
    Our ability to maximize the use of our personnel depends not only 
on ensuring that positions are filled, but also that employees receive 
training that enables them to perform the task at hand. We are working 
to ensure that our staff has the proper training and is equipped to 
handle any contingency. As an example, LM hosted Boot Camp 2009, a 
National training symposium that included more than 150 logistics 
disaster reservists and staff from all 10 FEMA Regions for pre-disaster 
synchronization and training.
Planning and Sourcing
    Comprehensive planning is also a necessary aspect of implementing a 
successful logistics operation. In order to ensure that FEMA has 
reliable systems and methods, LM plans and coordinates exercises aimed 
at enhancing readiness and identifying limitations.
    FEMA Logistics has placed a renewed focus on supporting the mission 
of our regional logistics staff--the primary link for executing the 
logistics mission and facilitating information flow between FEMA and 
State and local logisticians. Through the establishment of the HQ 
logistics Regional Planning Assistance Teams, we assist regional 
logistics staff in supporting State, local, and Tribal partners with 
planning, training, and exercises. Additionally, LM works with FEMA HQ 
and regional staff to conduct after-action reviews and implement timely 
corrective actions.
    FEMA closely coordinates planning activities with regional, State, 
local, and Tribal authorities, as well as our Federal partners, 
including GSA, the Defense Logistics Agency and the U.S. Army Corps of 
Engineers. We work together to set planning milestones, establish 
working groups and conduct training exercises.
    Sourcing refers to the ways in which FEMA acquires and delivers 
resources to affected individuals and locations in the event of a 
disaster or emergency. FEMA relies on four sourcing methods to acquire 
commodities needed to respond to a disaster: Warehoused goods, 
interagency agreements, mission assignments, and contracts.
    Warehoused goods are controlled by FEMA and are immediately 
available when incidents occur. They include initial response 
resources, which are intended to sustain life and prevent further 
property damage. Examples of these include water, meals, tarps, cots, 
blue roof sheeting, and blankets. They are pre-staged during a notice 
event in accordance with pre-coordinated State and region support 
concept plans. I have brought a sample of our 2010 Hurricane Season 
Concept of Resource Support Briefing for your review. As a real-world 
example, in preparation for Hurricane Earl 4 weeks ago, FEMA shipped 
roughly 400,000 liters of water, 300,000 emergency meals and 54 
generators to an Incident Support Base location at Fort Bragg Army 
Base, North Carolina. We also shipped approximately 213,000 emergency 
meals and 162,000 liters of water, 40 generators, and 12,500 tarps to 
an Incident Support Base at Westover Reserve Air Force Base, 
Massachusetts.
    FEMA uses interagency agreements to access resources managed by 
other Federal agencies. For example, FEMA has interagency agreements 
with the Defense Logistics Agency and GSA for a number of critical 
resources, including water, emergency meals, cots, blankets, and fuel.
    Mission Assignments are work orders issued by FEMA to other Federal 
agencies that direct the completion of a specific task and are intended 
to meet urgent, immediate, and short-term needs. They allow FEMA to 
quickly task Federal partners to provide critical resources, services, 
or expertise. FEMA has developed hundreds of pre-scripted mission 
assignments with 30 Federal agencies. Accordingly, FEMA Logistics can 
issue mission assignments to the U.S. Army Corps of Engineers pursuant 
to Emergency Support Function 3 for its Planning and Response Team 
support, and the Defense Logistics Agency for its Deployable 
Distribution Center Teams to assist with incident response 
requirements.
    Finally, FEMA uses contracts, which can be activated following an 
incident, to provide services such as ambulance and bus evacuation, 
facilities support, electrical generator maintenance and temporary 
housing support.
Tracking
    FEMA tracks supplies going to individuals and communities in need 
to ensure that supplies are shipped efficiently and in a timely manner. 
As part of the larger restructuring of FEMA, we set out to update our 
logistics supply chain management capability by updating our technology 
to more efficiently manage, store, and ship equipment and supplies with 
greater assurance that they will arrive when and where they are needed.
    FEMA is implementing the Logistics Supply Chain Management System 
(LSCMS), formerly known as the Total Asset Visibility Program, which 
will provide asset and in-transit visibility as well as electronic 
order management for all primary commodities. LSCMS embraces more than 
just total asset visibility, encompassing the entire supply chain 
management process. Currently, all ten FEMA regions have LSCMS program 
capability to electronically track orders, shipments in transit and 
shipments received in near real-time. The aspect of the program that 
manages warehouse inventory is currently available in two of FEMA's 
nine distribution centers. Four of the remaining seven distribution 
centers should have this same capability by the end of the calendar 
year, and the last three in 2012.
Coordination and Communication
    During the initial aftermath of Hurricanes Katrina and Rita, one of 
our biggest failures was an inability to successfully communicate and 
coordinate tasks among all of the parties involved. However, when 
working on a tight time frame with partners at the Federal, regional, 
State, local, and Tribal levels, not to mention the private sector, 
faith-based groups, non-profits, and individual disaster survivors, 
making sure that everyone is on the same page is absolutely essential. 
As a result, we have worked hard and put systems in place to ensure 
that we can coordinate and communicate in a manner that allows us to 
accomplish our objectives during disasters.
    LM now conducts weekly teleconferences with headquarters and 
regional logistics staff, as well as other interagency partners. During 
real-world contingencies, we conduct daily logistics operations calls 
with the same broad partner community. We also reach out to the faith-
based and non-profit communities through our role as Coordinator of 
Emergency Support Function 6--Mass Care.
    LM and GSA co-host an annual Emergency Support Function 7 summit 
meeting to discuss lessons learned, new logistics concepts and 
initiatives, best practices, and focus areas for the upcoming response 
cycle. Summit participants include all of the Emergency Support 
Function 7 partners, including the U.S. Army Corps of Engineers, the 
Defense Logistics Agency, U.S. NORTHCOM, the Department of Agriculture, 
the U.S. National Guard, Emergency Support Function 6--Mass Care 
partners and others.
    In 2007, Congress directed FEMA to develop and conduct a 
Demonstration Program with regional and local governments ``to improve 
readiness, increase response capacity, and maximize the management and 
impact of homeland security resources.'' Drawing on input from several 
FEMA regions along with several States, FEMA developed a collaborative 
maturity model for use by the States and territories to voluntarily 
self-assess current disaster logistics planning and response 
capabilities, identify areas for targeted improvement, and develop a 
roadmap to mitigate or eliminate weaknesses and enhance strengths.
    Finally, in 2009, LM issued several guidance documents in order to 
ensure that all parties are on the same page, including: The Logistics 
Operations Manual, the Temporary Housing Unit Concept of Operations, 
and the Logistics Management Center Standard Operating Procedures. 
These guidance documents help to ensure complete transparency through 
proper communication and coordination between Operations and Logistics 
at all levels during preparedness, response, and recovery operations.
Private Sector Collaboration
    FEMA recognizes the important role of the private sector in 
emergency management. Engaging these partners during an emergency 
allows us to quickly and effectively provide resources to communities 
affected by disaster, and we are committed to continuing and 
strengthening this successful collaboration.
    FEMA is currently working with the private sector to ascertain the 
operating status of retail locations during disasters, which will give 
our leadership a good sense of the on-the-ground reality of an 
incident. Using a web-based Logistics Visibility Tool (LogVIZ), FEMA is 
able to import from our private sector partners the locations and 
operating statuses of retail and wholesale stores, distribution 
centers, and warehouses. This data helps us make informed decisions 
during response and recovery operations and can also assist FEMA 
Acquisition in identifying local vendor sources to meet disaster 
resource requirements. This concept is also consistent with FEMA 
doctrine to help restore local economies by buying from the impacted 
community as much as possible. LogVIZ is a real-time tool, providing 
live updates to relevant data so that operational personnel constantly 
have access to the latest situational information, and it allows us to 
partner with, rather than compete against, local businesses. We also 
use Interagency Agreements to leverage existing contracts between other 
Federal partners and private sector entities to gain contracting 
efficiencies.
    Finally, FEMA hosts and attends biweekly ``Vendor Day'' meetings to 
invite private sector companies to share information on products and 
services that may improve FEMA's ability to carry out its mission. Last 
month, LM was awarded the fiscal year 2009 DHS Competition and 
Acquisition Excellence Award for Innovation and Best Practices in 
recognition of the success of the Vendor Presentation Meeting Program 
that established a formal forum for vendors to highlight their 
products, services, and capabilities. This program improved acquisition 
operations by promoting competition and increasing transparency and 
market knowledge.
                           iv. looking ahead
    Over the past several years, FEMA has undertaken many initiatives 
to improve our logistics capability. We value the recommendations 
provided by the July 2010 OIG Report to further improve FEMA logistics 
and we are acting swiftly to implement them.
    We are constantly looking for ways to improve our sourcing, 
information systems, and coordination with State, local, and Federal 
partners. Having already discussed the steps we have taken in recent 
years, I would like to share with you some of the steps we will take in 
order to continue to improve upon our logistics capability.
Logistics Supply Chain Management
    In its report, the OIG recommended that FEMA evaluate whether the 
LSCMS program that is under development is on track to support 
logistics operations. FEMA agrees with this recommendation and is 
taking proactive steps in that regard. The LSCMS Program supports 
FEMA's mission of responding to all hazards expediently and efficiently 
by managing the Nation's end-to-end supply chain of critical disaster 
assets and commodities.
    This year, FEMA will continue making progress with LSCMS Phase 2, 
the implementation of industry-standard Warehouse Management systems at 
FEMA distribution centers and the utilization of hand-held devices to 
automate receipt and shipment information at field sites. LSCMS Phase 2 
implementation plans are in place as well for both 2011 and 2012.
Coordination and Communication
    The OIG Report recommended that FEMA work with State partners to 
identify and overcome State and local logistical deficiencies, which we 
are doing with the implementation of the Logistics Capability 
Assessment Tool (LCAT). The LCAT allows States to automatically self-
assess their logistics maturity in five key areas: Logistics planning, 
operations, organization, property management, and distribution 
management. We have also created an internal guidance document that 
assists the States with the emergency supplies grant approval process 
as they determine their needs through LCAT self-assessment.
National Distribution Centers
    LM will systematically upgrade our National Distribution Centers, 
which are at the core of FEMA's supply chain transformation effort and 
are essential to FEMA's fundamental life-sustaining and saving assets. 
The improved warehousing strategy will provide the capacity and 
flexibility to respond effectively and efficiently to the full set of 
disaster scenarios.
State Logistics Planning and Preparedness
    Beginning in fiscal year 2009, critical emergency supplies, such as 
shelf stable food products, water, and basic medical supplies, became 
allowable expenses under the Homeland Security Grant Program, State 
Homeland Security Program (SHSP), allowing States to apply for SHSP 
funding to address these needs.
    Prior to allocating grant funding, each State must have FEMA's 
approval of a viable inventory management plan, an effective 
distribution strategy, sustainment costs for such an effort, and 
logistics expertise to avoid situations where funds are wasted because 
supplies are rendered ineffective due to lack of planning.
    The inventory management plan and distribution strategy are 
evaluated and monitored by the Grants Programs Directorate (GPD) with 
the assistance of LM. GPD will coordinate with LM and the respective 
FEMA Region to evaluate each State application and provide program 
oversight and technical assistance as it relates to the purchase of 
critical emergency supplies under SHSP. GPD and LM have established 
guidelines and requirements for the purchase of these supplies under 
the SHSP and will monitor the development and status of the State's 
inventory management plan and distribution strategy.
    LM is also working with FEMA Preparedness to publish a 
Comprehensive Planning Guide (CPG 201) Logistics Preparedness and 
Planning manual to further enhance State logistics planning and 
preparedness.
Single Point Order Tracking
    Finally, pursuant to FEMA's Operations and Logistics Integration 
Guidance issued in August 2009, and the OIG Sourcing audit (OIG-09-96), 
FEMA has developed a single-point order-tracking business process to 
facilitate management and tracking of all resource orders. During 
disaster response and recovery operations, all orders will be tracked 
via one central point from the order to the delivery to the end user.
                             v. conclusion
    There are few things more critical to our response to and recovery 
from a disaster than having and executing an effective logistics plan 
to provide critical resources support. FEMA has made great strides to 
improve its logistics capability since Hurricanes Katrina and Rita. As 
the OIG has recognized, the improvements made by FEMA HQ and Region 
personnel and our interagency logistics partners have been essential to 
making these improvements.
    We will continue to approach our work of preparing for, protecting 
against, responding to, recovering from, and mitigating all hazards 
with vigilance. We must constantly work to improve our systems and our 
execution. The OIG made valuable and important observations and 
recommendations for improving our logistics efforts. We agree with 
those recommendations, and are already taking actions to implement 
them. We look forward to keeping the subcommittee apprised of our 
efforts.
    Thank you again for the opportunity to testify before you today, 
and for your continued interest in FEMA logistics. I am prepared to 
answer any questions the subcommittee may have.

    Ms. Richardson. Thank you for your testimony. I now 
recognize Mr. Irwin to summarize his statement for 5 minutes.

  STATEMENT OF STEPHEN A. IRWIN, CHAIR, DONATIONS MANAGEMENT 
COMMITTEE, NATIONAL VOLUNTARY ORGANIZATIONS ACTIVE IN DISASTER 
   (NATIONAL VOAD), DIRECTOR, AGENCY SERVICES, CONVOY OF HOPE

    Mr. Irwin. Chairwoman Richardson and distinguished Members 
of the committee, thank you for the opportunity to speak today.
    Convoy of Hope is a 501(c)(3) nonprofit organization 
founded in 1994. Based in Springfield, Missouri, our mission is 
to feed the world through children's feeding initiatives, 
community outreaches, partner resourcing, and disaster 
response.
    Each day, we feed tens of thousands of children in 
countries like El Salvador, Haiti, Honduras, Kenya, Nicaragua, 
and the Philippines. For many of these children, the meal they 
receive from us is the only meal they receive.
    We also mobilize, train, and resource churches, businesses, 
and other organizations to help meet their communities' needs 
through our community outreaches, where free food and 
services--including health and dental screenings--are provided.
    In the past 16 years, we have distributed over $200 million 
worth of food, water, and supplies in more than 100 countries. 
Each year corporations donate tens of millions of dollars worth 
of gifts in kind to Convoy of Hope.
    Considered an initial responder organization in disaster 
relief, we are known for quickly and efficiently providing 
emergency supplies, such as water, ice, and food, to survivors 
of disasters. With a fleet of tractor trailers, a 300,000-
square-foot world distribution center in Springfield, Missouri, 
a high-tech mobile command center, a network of partners and 
time-tested distribution models, we have earned recognition for 
getting the job done.
    Following Hurricane Katrina, we helped more than 6 million 
people in 74 communities in the Gulf, where we distributed 35 
million pounds of fresh drinking water, food, and supplies. In 
addition, nearly 3,000 families saw their homes rebuilt or 
restored.
    A strong network of partnerships with local churches, 
agencies, organizations, and individuals in affected areas 
proved invaluable to facilitating our response. By utilizing 
local volunteers, we are able to promote a level of goodwill 
that helps communities return to their pre-disaster condition.
    This was demonstrated last year in Indonesia, the 
Philippines, Samoa, and American Samoa after typhoons and 
tsunamis struck the islands.
    We also saw the benefits of our partnership network play 
out earlier this year when we responded to the earthquake in 
Haiti. Our expediency in Haiti was due in part to our 
established feeding initiatives. We also had a recently 
restocked warehouse, personnel on the ground, strong 
partnerships with like-minded organizations, and vehicles and 
communication systems to meet immediate needs. Because of these 
factors, we were able to distribute over 4 million pounds of 
supplies, 4,300 water filtration systems, and 47,000 hygiene 
kits; to date, we have provided more than 15 million meals; and 
we have served over 1 million people.
    As a member of and now the chair of the National VOAD 
Donations Management Committee, I have trained and Convoy of 
Hope has used the National Donations Management Network in many 
of the disasters we have responded to.
    It is a useful tool in moving commodities to the end user. 
However, it is not the only tool, nor is it to replace the 
current systems of partnership and communication currently used 
in logistics planning of NGOs and faith-based organizations as 
they respond to disasters.
    Recently, Convoy of Hope was asked to participate in the 
development of the Multi-Agency Feeding Plan Template. The 
template provides suggested guidance and procedures for a 
jurisdiction to consider in the development of a multi-agency 
feeding plan and a coordinating group, the Feeding Task Force, 
that supports feeding assistance in advance of, during, and 
after a disaster throughout the impact areas of a State.
    The template stresses coordination among the various 
organizations and agencies participating in feeding operations, 
including Federal, State, Tribal, and local government 
entities, nongovernmental organizations, National and State 
Voluntary Organizations Active in Disasters, and other 
voluntary organizations.
    On August 20, 2008, FEMA headquarters finalized a standard 
operating procedure titled ``Processing, Distribution, and 
Disposal of Donated and Federally Purchased Goods Controlled By 
FEMA.'' This procedure authorizes and sets forth procedures on 
how FEMA will support non-profit organizations with donated and 
Federally purchased goods. First introduced in September 2008 
following Hurricane Gustav, FEMA provided goods to 33 nonprofit 
organizations in seven States, including 221 truckloads of 
water, 117 truckloads of meals, and 10 truckloads of ice. After 
Hurricane Ike in November 2008, FEMA provided goods to 34 
National and State non-profit organizations, including 228 
truckloads of water and 6 truckloads of snack meals.
    This program can continue to be developed to help National 
VOAD agencies respond without depleting precious donated 
resources. Such partnership amongst all stakeholders will 
ultimately address the unmet needs in logistical planning and 
remove obstacles associated with inefficiency, wasted dollars, 
duplication of services and lack of progress, bringing 
communities back to their quality of life before the disaster.
    Chairwoman Richardson and distinguished Members of the 
committee, thank you again for your time. I welcome any 
questions you might have.
    [The statement of Mr. Irwin follows:]
                 Prepared Statement of Stephen A. Irwin
                           September 29, 2010
    Mr. Chairman, Chairwoman Richardson, and distinguished Members of 
the committee, thank you for the opportunity to speak today regarding 
Emergency Logistics Management: Transforming the Delivery of Disaster 
Relief for the 21st Century.
    Convoy of Hope is a 501(c)(3) nonprofit organization founded in 
1994. Based in Springfield, Missouri, our mission is to feed the world 
through children's feeding initiatives, community outreaches, partner 
resourcing, and disaster response.
    Each day, we feed tens of thousands of children in countries like 
El Salvador, Haiti, Honduras, Kenya, Nicaragua, and the Philippines. 
For many of these children, the meal they receive from us is the only 
meal they receive.
    We also mobilize, train, and resource churches, businesses, and 
other organizations to help meet their communities' needs through our 
community outreaches where free food and services--including health and 
dental screenings--are provided.
    In the past 16 years we have distributed over $200 million worth of 
food, water, and supplies in more than 100 countries. Each year 
corporations donate tens of millions of dollars' worth of ``gifts in 
kind'' to Convoy of Hope.
    Considered an ``initial responder'' organization in disaster 
relief, we're known for quickly and efficiently providing emergency 
supplies--such as water, ice, and food--to survivors of disasters. With 
a fleet of tractor-trailers, a 300,000-square-foot world distribution 
center in Springfield, Missouri, a high-tech Mobile Command Center, a 
network of partners, and time-tested distribution models, we have 
earned recognition for getting the job done.
    Following Hurricane Katrina, we helped more than 6 million people 
in 74 communities in the Gulf where we distributed 35 million pounds of 
fresh drinking water, food, and supplies. In addition, nearly 3,000 
families saw their homes rebuilt or restored.
    A strong network of partnerships with local churches, agencies, 
organizations, and individuals in affected areas proved invaluable to 
facilitating our response. By utilizing local volunteers, we are able 
to promote a level of goodwill that helps communities return to their 
pre-disaster condition.
    This was demonstrated last year in Indonesia, the Philippines, 
Samoa, and America Samoa after typhoons and tsunamis struck the 
islands. We also saw the benefits of our partnership network play out 
earlier this year when we responded to the earthquake in Haiti.
    Our expediency in Haiti was due in part to our established feeding 
initiatives. We also had a recently restocked warehouse, personnel on 
the ground, strong partnerships with like-minded organizations, and 
vehicles and communication systems to meet immediate needs. Because of 
these factors we:
  <bullet> Distributed over 4 million pounds of supplies, 4,300 water 
        filtration systems, and 47,000 hygiene kits;
  <bullet> To date provided more than 15 million meals;
  <bullet> Served over 1 million people.
    As a member of, and now the chair of, the NVOAD Donations 
Management committee, I have trained and Convoy of Hope has used the 
National Donations Management Network--formally known as Aidmatrix--in 
many of the disasters we have responded to.
    It is a useful tool in moving commodities to the end user. However, 
it is not the only tool, nor is it to replace the current systems of 
partnership and communication currently used in logistics planning of 
NGOs and Faith-Based organizations as they respond to disasters.
    Recently, Convoy of Hope was asked to participate in the 
development of the Multi-Agency Feeding Plan Template. The template 
provides suggested guidance and procedures for a jurisdiction to 
consider in the development of a multi-agency feeding plan and a 
coordinating group (the Feeding Task Force) that supports feeding 
assistance in advance of, during, and after a disaster throughout the 
impact area(s) of the State.
    The template stresses coordination among the various organizations/
agencies participating in feeding operations, including Federal, State, 
Tribal, and local government entities, non-governmental organizations, 
National and State Voluntary Organizations Active in Disaster (VOADs) 
member organizations, and other voluntary organizations.
    On August 20, 2008, FEMA Headquarters finalized a standard 
operating procedure titled, ``Processing, Distribution, and Disposal of 
Donated and Federally Purchased Goods Controlled by FEMA.'' This 
procedure authorizes and sets forth procedures on how FEMA will support 
nonprofit organizations with donated and Federally purchased goods. 
First introduced in September 2008 following Hurricane Gustav, FEMA 
provided goods to 33 nonprofit organizations in seven States, including 
221 truckloads of water, 117 truckloads of meals, and 10 truckloads of 
ice. After Hurricane Ike in November 2008, FEMA provided goods to 34 
National and State non-profit organizations, including 228 truckloads 
of water and 6 truckloads of snack meals.
    This program can continue to be developed to help NVOAD agencies 
respond without depleting precious donated resources. Such partnership 
amongst all stakeholders will ultimately address the unmet needs in 
logistical planning and remove obstacles associated with inefficiency, 
wasted dollars, duplication of services, and lack of progress, bringing 
communities back to their quality of life before the disaster.
    Mr. Chairman, Chairwoman Richardson, and distinguished Members of 
the committee, thank you again for your time. I would welcome any 
questions you might have.

    Ms. Richardson. I thank all the witnesses for your 
testimony.
    I will remind each Member that he or she will have only 5 
minutes in the first line of questions to ask this panel. We 
are going to keep to that time frame very strictly because, as 
I said, we are trying to beat the deadline before the votes are 
called, so we won't have to keep our witnesses here for 2 or 3 
hours waiting on us.
    I will now recognize myself for questions.
    Mr. Jadacki and Mr. Smith, both of you in your testimonies, 
you reference working with State and local governments and 
Tribal governments. Can you tell me what specifically has been 
done with Tribal governments?
    Mr. Smith. Yes, ma'am. In 2007, through Congressional 
legislation, we were authorized to provide the Tribal 
government temporary housing, excess temporary housing we had. 
We allocated 1,500 units of the mobile homes that we had in 
storage to the Tribal governments.
    In addition to that, we plan through our regions on a 
continued basis for supply and support needs of the States and 
Tribal governments. So those two methods are the ones that we 
used to work with the Tribal government.
    Ms. Richardson. So you are saying to me, if I were to go to 
one of the regions and ask some of the Tribal governments, are 
they a part of the regional teams, that they would answer in 
the affirmative?
    Mr. Smith. I would think through the State, the regions 
work with the State, and I believe that the way the process 
works, that the Tribal governments are in coordination with the 
States. So I think they look at it as a holistic capability 
through the State.
    Ms. Richardson. But have you verified out of your office 
that, in fact, the Tribal governments have been engaged and are 
prepared and are a part?
    Mr. Smith. Not directly.
    Ms. Richardson. Would you do that, sir?
    Mr. Smith. I will.
    Ms. Richardson. Thank you.
    My next question that I wanted to get to is, Mr. Jadacki, 
in your testimony you said that substantial progress has been 
made, but there are still many remaining challenges. I am a 
little concerned in light of the funding that has already been 
spent that you didn't seem to have a full assurance that 
Congress would achieve their mandate.
    Am I accurately summarizing your testimony?
    Mr. Jadacki. The point of my testimony was that the, 
although they have increased the staff size by tripling it to 
about 150 staff, they have a system that they are developing 
right now. They need to sustain that process. That is what our 
concern is. There is a pretty tight time line they have on the 
system itself, we watch, we are keeping a close eye on that. 
DHS had some problems in the past with other major 
procurements. Deepwater, for example, I think there were some 
hearings with this committee or other committees on that with 
the Coast Guard SBInet, some of those types of things. But 
given the price tag is about a quarter of a billion dollars, we 
have concerns about delivery and making sure it works as 
planned.
    So we do plan to keep a tight look on that. But that is one 
of our major concerns right now. The fact that they have made 
substantial progress and that the budgetary resources are still 
available, so they can maintain it in the future.
    Ms. Richardson. Mr. Smith, do you agree with Mr. Jadacki's 
assessment?
    Mr. Smith. Yes, I do. The system is a robust system, and it 
takes time to put it in. But we are well within our time frame 
to have the system fully operational, capable.
    We are going from a system, again, as you noted earlier, 
was pretty antiquated to one that is now going to be industry 
standard. So the combination of the training that is required 
and all the technical issues associated with that we have, our 
time frame is to have this system fully operational by mid-
2012, and we are well within that time frame.
    Ms. Richardson. I am sure others will have questions to 
validate that.
    The last question I am going to ask, and I will keep you in 
mind that I have a 1 minute and 30 seconds, as you well know, 
my district is in southern California. As I said, it is prone 
to earthquakes. I have a very large Samoan population. What I 
witnessed was a little disturbing in terms of the delivery and 
coordinating with voluntary organizations. What can be done 
differently to improve FEMA's delivery of disaster relief if 
another tsunami hits American Samoa?
    Let me briefly tell you some of the problems I witnessed. 
No. 1, I found that the Governor was more concerned about a 
bill that he had owed this Government, the Federal Government, 
and so he was concerned about additional costs that would be 
incurred, rather than, in my opinion and in my assessment of 
what I saw, of making sure that we got what was needed there.
    No. 2, there was not a clear understanding of what airlift 
capabilities were allowed at that particular airport, so we had 
to switch planes in midstream because they didn't have the 
right device to be able to unload on the original plane that we 
had.
    No. 3, finally, there seemed to have been some thought with 
FEMA that, at some point, you don't want to give them too much 
because you want the businesses to be able to survive, because 
that is also a part of the rebuilding. The problem with that is 
if a person has lost their home, if people are dead, they have 
no shoes, no clothing, no nothing, to say that, well, we think, 
you know, we want the businesses to survive, where are they 
going to get the money to purchase these items?
    So I just witnessed, in my personal opinion, the delivery 
was not positive.
    So what are your thoughts, and what is going to be done to 
improve that for the future?
    Mr. Smith. I think fundamentally it all centers around 
planning, and it is something that we are paying particular 
attention to, particularly as we are looking at the next 
catastrophic disaster. Everyone with very good intentions wants 
to offer assistance. But at the time of the incident, it gets 
to be a little bit difficult if everyone, without working 
within a system that has been established, particularly on a 
preplanning effort, to bring in that assistance it gets to be a 
little bit unwieldy.
    So we are working with the region, and the Region 9 out of 
California has taken on this task, but to make sure that we 
bring all the parties to the table that have a role or want to 
have a role in providing assistance to the disaster victims, 
make sure we plan upfront; we make our mark, and we do a better 
job, be more efficient in what we are trying to do, if all 
realize what the requirements are up front and what those 
requirements are in accordance with the needs that are 
established on the ground.
    Ms. Richardson. You didn't really specifically answer my 
question, but my time is expired, so I am now going to defer to 
the Ranking Member, but I will come back because you didn't 
answer my question.
    Mr. Rogers, you are recognized for 5 minutes.
    Mr. Rogers. Thank you.
    This will be for Mr. Smith or Ms. Zimmerman, whichever one. 
How many staff positions are dedicated to logistics management 
within FEMA?
    Mr. Smith. We have authorized 208 positions, and currently, 
we have roughly 120 on hand today.
    Mr. Rogers. What is the reason for that gap?
    Mr. Smith. In the on-going hiring process, previously the 
majority of the personnel we had assigned to logistics were 
temporary employees with our CORE employees, a Cadre Of Ready 
Employees. We are in the process of converting those temporary 
employees to full-time positions. Right now that represents 
about 80-plus positions that we are in the process of going 
through the hiring process. I anticipate that process to be 
completed within the next few months.
    Mr. Rogers. So of those 208 that are authorized, there are 
actually people in those positions; they are just in temporary 
status until they can be converted?
    Mr. Smith. That is correct. The 208 references the 
permanent, but the temporary are filling those positions.
    Mr. Rogers. My next question is, what do you need? You got 
208 authorized. Assume they are all filled. What do you need to 
do your job?
    Mr. Smith. The 208 is what I need. We requested that the 
CORE employees--actually, their term of employment ends at the 
end of this fiscal year. As a part of that process, we ask that 
we continue to maintain that level of employment and convert 
those folks from temporary jobs to permanent jobs. So those 86 
that get us to 208 is what we need.
    Mr. Rogers. But my understanding, Mr. Jadacki, is you 
believe they need more people. Is that not what your report 
reflected?
    Mr. Jadacki. I think, and I don't know where the 208 came 
from. I probably did some internal assessment on that. I am 
concerned about the fact that there is going to be turnover, 
that there is going to be budget constraints and those types of 
things. So you are going to get people on board as people are 
leaving, you are never going to get to that 208. It has been a 
chronic problem with FEMA right now. If 208 is the right number 
to provide the robust logistics capacity, it is going to be 
difficult to get there for all the reasons he explained, the 
competitive process, the clearance and those types of things, 
and then you have a lot of people turning over, too.
    Mr. Rogers. Well, that is a chronic problem we have 
throughout DHS. I am just very frustrated about it.
    But one of my concerns, Mr. Smith, is--and this has been a 
problem across the Department--is oftentimes folks like you are 
up here and saying you got what you need when we know good and 
well you don't have what you need. You are concerned about your 
superiors getting angry and taking out retribution for you 
telling us what you need. Because we can't give it to you if 
you don't tell us, particularly on the record.
    So I don't know how to get past that problem. That is one 
of my frustrations when I read from the IG report that you all 
need more staffing, and then you say, 208 is going to take care 
of it, and I got 208 people; some of them are in a different 
title of employment.
    So just know we want to help you, but you have to 
communicate to us what your needs are.
    Shift gears just a minute and talk about grant funding to 
help State and locals with their logistics need. Any one of 
you, what do you want to see improved in our grant structure 
that will help scratch that itch?
    Mr. Smith. Right now, there are two means that I am aware 
of that will allow the States to use grant funding to improve 
their logistics needs. One is through the State Homeland 
Security Program and the other is through the Regional 
Catastrophic Planning Grant.
    The issue that the States have is prioritization. Within 
those grants, they have to establish what they think are 
priorities for the States to allocate the money. Oftentimes, 
logistics fall below that priority line. So that is the issue 
we are seeing. It is not one at FEMA----
    Mr. Rogers. So you would want to see some of the grant 
funds dedicated to logistics?
    Mr. Smith. Actually, what I would like to see in the future 
is a program that, a logistics technical assistance program, 
that is specifically for the logistics. Right now States are 
competing with numerous different programs for State funding. 
But if we have one dedicated strictly to logistics, I think 
that would be of assistance.
    Mr. Rogers. I think that is a fine suggestion.
    Thank you. I yield back.
    Ms. Richardson. The Chairwoman now recognizes the Chairman 
of the whole Committee of Homeland Security, again, the 
gentleman from Mississippi, Mr. Thompson, for 5 minutes.
    Mr. Thompson. Thank you very much, Madam Chairwoman.
    Mr. Jadacki, can you tell me your review of FEMA's 
logistics supply management system? Do you think FEMA can do 
it?
    Mr. Jadacki. Well, we have concerns about it that were 
reported. We have a number of areas, the sustained funding and 
staffing we just talked about. We need to get customer buy-in, 
because it is not only a FEMA system, but it is going to be 
used by the Federal partners and probably, to some extent, the 
States, so you need to get buy-in from that, too. So it becomes 
a very, very complex system that we are dealing with. Again, 
given some of the history of some of the major projects in DHS, 
we remain very concerned about it.
    We have a number of contractors that are implementing it. 
You have a project integrator. I believe that the staff that 
FEMA has overseeing it are capable of doing that. But again, 
given the price tag, we still remain very concerned about that.
    Mr. Thompson. Price tag too high? Too low?
    Mr. Jadacki. Well, I won't say if it is too high or too 
low, but it is given a quarter of billion dollars; it is a 
significant amount of resources, a major project within DHS.
    Mr. Thompson. Okay.
    Well, I guess--now, Mr. Smith are you the person being 
charged with implementing this?
    Mr. Smith. Yes, Mr. Chairman.
    Mr. Thompson. You heard Mr. Jadacki's comments. What do you 
have to say about it?
    Mr. Smith. I would offer that we are performing our 
logistics functions. I think the technical piece of it we are 
trying to enhance the logistics capability is just one tool 
that we are looking using to do our job.
    As I stated earlier, the banner year for support for us was 
in 2008 when we provided over $1 billion worth of resource 
support along alone in logistics in support of several major 
incidences. We have put the processes in place. We have the 
partnerships in place to allow us to do our job. The question 
now is: Can we put a system in place that will enhance our 
capability? We are in fact doing that.
    Mr. Thompson. So the answer is yes?
    Mr. Smith. Yes, Mr. Chairman.
    Mr. Thompson. Now, can you provide the committee with all 
of the contracts that go toward creating this logistics supply 
chain management system?
    Mr. Smith. Yes, Mr. Chairman.
    Mr. Thompson. In addition, I want you to tell me whether, 
in that explanation, whether those are big businesses, small 
businesses, women-owned, minority businesses? One of the 
problems we have identified is, within DHS, there is this 
notion of bundling of contracts, so that medium- and small-
sized companies get cut out for the convenience of DHS. But our 
experience is many of those small- and medium-sized companies 
do a good job. I would like to see that.
    Ms. Zimmerman, with this Aidmatrix contract, who owns the 
system?
    Ms. Zimmerman. Aidmatrix, who is a private non-profit 
foundation, was given the grant to develop the National 
Donations Management Network. The system itself is owned and 
the data is owned by Aidmatrix Foundation. However, FEMA has 
the Government purpose licenses in order for us to be able to 
use all the data within it and to have unlimited use to the 
National Donations Management Network.
    Mr. Thompson. How much do we pay to use the system?
    Ms. Zimmerman. To date, we have given grant money of just 
over $3.4 million, to Aidmatrix.
    Mr. Thompson. So we are renting or leasing this system?
    Ms. Zimmerman. Sir, we are working together on it.
    Mr. Thompson. All right. I understand you are working 
together. But we, being FEMA, is the only customer for this 
system?
    Ms. Zimmerman. No, it is for the States. We have 43 States 
that have signed up and are using the National Donations 
Management Network. It has been used in over 20 disasters to 
date.
    Mr. Thompson. Has an analysis of the system been made thus 
far?
    Ms. Zimmerman. As far as an analysis, we constantly are 
working with our partners in emergency management, the States, 
the voluntary agencies, to make any changes to the system as it 
has come up, and we have made changes through Aidmatrix.
    Mr. Thompson. Madam Chairwoman, I would like for us to have 
some analysis of what events this system has been used in 
because we still get stories of things expiring in warehouses 
because nobody is using it.
    Now, as I understand it, this system, in addition to moving 
donated goods, should not let that happen.
    Is that part of what we use the system for?
    Ms. Zimmerman. The system was used, our partners in the 
National VOAD and the other voluntary agencies, when they get 
donations, they handle those individually. But however, if 
there is someone who would like to donate, so it is unsolicited 
donations and the unaffiliated volunteers can all be tracked 
through the system of the National Donations Management 
Network. So as people input services and sources that they 
would like to donate, those go into the system and then the 
States can each go in and pull off what it is they would like 
to use.
    Mr. Thompson. Who approves the pull-off?
    Ms. Zimmerman. The States. The States are able to go in and 
use it to manage their donations management within the State.
    Mr. Thompson. But we are paying for it?
    Ms. Zimmerman. We have provided the grant money to 
establish the system for the States, yes.
    Mr. Thompson. Maybe I would ask that, Madam Chairwoman, 
that the staff at least be given a briefing on that. I am a 
little concerned. You have got all these people tied into it 
and nobody overseeing it. Is that, am I mischaracterizing the 
system?
    Ms. Zimmerman. FEMA has access to it also, so in disasters 
we all work together.
    Mr. Thompson. That sounds good. But in disasters, 
generally, it is everybody for himself. Somebody has to mind 
the product, has to control the product.
    Ms. Zimmerman. The resources that are going into the 
product, yes, and that is handled at the State level. Each 
State has their own portal within the system.
    Mr. Thompson. Okay. Well. I think, in trying to make the 
system functional, if you have a five-State emergency, and all 
five States are in there trying to access it, is it first come, 
first serve?
    Ms. Zimmerman. They all have their own portals.
    Mr. Thompson. But they are looking at the same product, am 
I correct?
    Mr. Smith. Yes, if you don't mind, Mr. Chairman, I can add 
something to that.
    The way the system works is, when a disaster happens, the 
States go in and establish and open up their portal, and then 
they list on their portal what type of donations they want to 
receive to help them out. So when donations are input to the 
system, they are directed towards a specific State to a 
specific need. So it is not a one system where things are hung 
out there, and everybody is picking on it. It is specifically 
for the State of Mississippi or California or Iowa or whatever 
may be.
    Mr. Thompson. Thank you.
    I yield back, Madam Chairwoman.
    Ms. Richardson. Thank you, Mr. Chairman.
    Mr. Smith and Ms. Zimmerman, did you understand the line of 
questions and what was the information the Chairman was asking? 
Did you understand what his request was of what he would like 
to receive?
    Ms. Zimmerman. Yes, we like to receive an analysis of the 
system and how it has worked.
    Ms. Richardson. Go ahead, Mr. Chairman.
    Mr. Thompson. I want to see the management. If you have the 
charities involved and you have the States involved, someone 
has to be the traffic cop. I am concerned that in the event of 
a Katrina-like event or something like that, who is in charge? 
I am not clear yet as to who is in charge.
    Ms. Richardson. Are you now clear of what the request is 
for the information?
    Ms. Zimmerman. Yes.
    Ms. Richardson. You agree to submit the information to the 
committee for the record.
    Ms. Zimmerman. Yes, we do.
    Ms. Richardson. Thank you.
    The Chairwoman now recognizes other Members for questions 
that may wish to ask witnesses. In accordance with our 
committee rules and practice, I will recognize Members who were 
present at the start of the hearing based on seniority on the 
subcommittee, alternating between Majority and Minority 
Members. Those Members coming in later will be recognized in 
the order of their arrival.
    The Chairwoman now recognizes the gentleman from Louisiana, 
Mr. Cao.
    Mr. Cao. Thank you, Madam Chairwoman.
    First, I want to again thank FEMA for assisting my people 
during Hurricane Katrina. But you understand the frustration 
that we have with FEMA after Hurricane Katrina, especially in 
the New Orleans area.
    I have a couple of questions, but, Mr. Smith, do you know 
how much FEMA paid for a peanut butter and jelly sandwich 
during Katrina?
    Mr. Smith. No, Congressman.
    Mr. Cao. I believe it was like $8 for a peanut butter and 
jelly sandwich.
    Do you know how much FEMA paid for a FEMA trailer?
    Mr. Smith. No, I do not, Congressman.
    Mr. Cao. I think it was in excess of $200,000 per FEMA 
trailer.
    The question I have is: What has FEMA learned from Katrina 
and how can you leverage the buying power of other Federal 
agencies in order to be more efficient in your response and in 
order to lower the cost of goods and services?
    Mr. Smith. Congressman, if you allow me, I think we are 
doing just that. Those incidents that you referred to were 
prior to the transformation effort that we undertook with FEMA 
Logistics. In accordance with the Post-Katrina Emergency Reform 
Act, we were asked to look at that type of issue and how it 
impacted the effectiveness of our FEMA Logistics program.
    Since that time, we have instituted a single, integrated 
program where FEMA Logistics, the chair I sit in, is 
responsible for integrating a full National capability for 
incident response. In this case, we use our primary innovation 
partners at DLA, GSA, Corps of Engineers, and all. We leverage 
their capability with their hat. We use their expertise.
    We are now in a management role instead of more of an 
execution role. So we preplan with them according to the State, 
in this case, Louisiana, what would Louisiana expect the 
Federal Government to provide in a disaster and we work with 
our States, our partners, who have the capability to help us 
deliver that service.
    I would say that, since Katrina, you would not find 
instances where those types of occurrences that you mentioned 
here have happened since 2005.
    Mr. Cao. I also saw that a lot of the $8 peanut butter and 
jelly sandwiches were thrown away. People did not eat them.
    I remember during rebuilding after Katrina there were food 
trucks from the American Red Cross and other non-profit 
agencies that were driving around the city to provide food for 
people while they were rebuilding their home, and I got in line 
on several to get food from several of those food trucks 
myself. My question to you is: How can we better partner with 
those non-profits, possibly with other restaurants, to provide 
food that people would eat rather than simply receive something 
and then throw it away?
    Mr. Smith. That is a great question. That is a relevant 
question, and we had meetings on that this past week on how we 
can better integrate with the National volunteer organizations 
and the capability they provide to a disaster response.
    Right now, that is a decentralized process. We are working 
now through our mass care directorate in FEMA, along with our 
National voluntary partners, to include the Red Cross, to again 
work together in a preplanning process to understand each 
other's capabilities and then line those up with the 
requirements that the State has so we can have a more 
integrated response process and provide more efficient 
services.
    That is an issue. It is an on-going issue. We are 
diligently working to try to close that gap.
    Mr. Cao. Thank you. I yield back.
    Ms. Richardson. The Chairwoman now recognizes the gentleman 
from New Jersey, Mr. Pascrell.
    Mr. Pascrell. Thank you, Madam Chairwoman. I yield to the 
Chairman.
    Mr. Thompson. Thank you very much.
    In the interest of making sure that my comments are clearly 
understood, Mr. Irwin, if we commission a review of the 
Aidmatrix system, taking in the public stakeholders and the 
private stakeholders to see whether Aidmatrix is the best model 
for what we are trying to get, would VOAD oppose that? If your 
membership was asked, would they tell the truth?
    Mr. Irwin. Yes, I believe they would.
    In my testimony, I mentioned I have used it and have been 
trained on it since 2006. I was part of a beta group down in 
Dallas to pick it apart, if you will, before the rollout. There 
were some concerns, as any software would have, and that is the 
reason we had the beta group gather. It was a number of 
agencies, including Government and State representatives, to 
look at it and see would it function properly and would it do 
what we wanted it to do.
    The intention of the system is to take care of the 
unsolicited donation that just shows up on the street, like 
many truckloads of food and clothes during Katrina that ended 
up being piled away, being unused. The reason for that was that 
there was no end user. It was a farmer or a businessman that, 
through the compassion of their heart, they wanted to bring 
things to bear for those people impacted by that disaster. What 
we want to do is to make sure, through any system that is used, 
that we avoid those types of things happening again.
    Whether or not the Aidmatrix, which is called the National 
Donations Management Network, will actually keep that coming, 
we still want to know if that will work or not. I don't think 
we are having the same kind in the disasters that we have 
responded and used it. In 20 disasters, we have not had the 
same kind of waste as we saw in Katrina.
    So, yes, it is working on one level. There is more 
development that needs to be done. I think the VOAD agencies 
would be honest and fair with their description and evaluation 
of the system going forward.
    Mr. Thompson. Thank you. I yield back to the gentleman from 
New Jersey.
    Mr. Pascrell. Thank you, Mr. Chairman. Thank you, Madam 
Chairwoman.
    Before I ask a couple of questions of Mr. Smith, Madam 
Chairwoman, I wanted to bring to your attention, it struck me 
as I listened to our fellow Members, Mr. Rogers talked about 
the accountability of personnel numbers. I think that is 
critical.
    We have seen the problem in many divisions of Homeland 
Security dealing with continuity and experience. If people have 
anxiety about whether their job is going to exist 6 months from 
now or 2 months from now, we can't expect top performance from 
those folks. These people are working under a lot of pressure. 
So there has to be some stability in the hiring and firing in 
Homeland Security across the line. I think that is important. I 
think these problems are chronic. Personnel problems are 
chronic.
    Mr. Cao asked about the food. He wasn't using this for 
emphasis, but his point was well taken. You have an $8 peanut 
butter and jelly sandwich--first of all, forget about what it 
tastes like. But $8, what was in it, a gold nugget or 
something? I don't know. We found what was underneath the 
trailers.
    We need accountability here. The Chairman talked about the 
accountability within contracts. Somehow we never get to the 
point of who owns the company that we fired. Somehow.
    So with that in mind, and I think you share the same 
opinions, Assistant Administrator Smith, you know the Eighth 
District in New Jersey is centered in the Passaic River Basin 
and suffered tremendous problems, the worst flooding, earlier 
this year in March. President Obama made an expedited 
declaration of Federal disaster on April 2 which allowed the 
victims to make claims for Federal aid.
    I want to express appreciation--and I mean that sincerely--
to your FEMA people. I was with them just about every day when 
I wasn't here. They did a fantastic job. They responded very 
quickly. They worked effectively, and they worked with the 
community. They didn't look down on members of the community. 
This is a community that has been hit by flooding so many times 
in the past 50 years that it isn't funny.
    I want to commend FEMA, the team of Region 2, for all of 
their hard work. While there will always be difficulties in 
managing disasters such as that, I believe most people have 
been impressed with how FEMA has handled the aftermath of these 
storms.
    My main concern when it comes to emergency logistics 
management is how well FEMA coordinates with State and local 
authorities. I wanted to ask, what has FEMA done to work with 
State and local partners to identify and overcome logistical 
deficiencies, given the current economic climate?
    Mr. Smith. Congressman, in compliance with a Congressional 
mandate in 2007 to develop a tool that can help States to not 
only identify local logistics challenges but also come up with 
solutions, we developed a tool we call the logistics capability 
assessment tool. What this tool does is help the States do a 
self-assessment in five critical areas that are related to 
logistics; and that is logistics planning, logistics 
operations, organization, property management, and distribution 
management.
    Through the regions, we set up a schedule. We go sit with 
them, and we ask them to bring in their entire network within 
the State or local community that helps them during a disaster, 
from the private sector, contractors, everybody that is 
involved. We conduct a 2-day workshop where we go through each 
one of these areas with the State in various manners to have 
them do an honest assessment on where they are and their level 
of maturity for logistics capability.
    After that is done--and this is an automated program and we 
punch a button, and it gives them a matrix view of where they 
stand in each one of these categories--then it is up to the 
State to decide whether they are where they need to be in each 
one of these areas or if they need improvements. If they need 
improvement, we help them through the means we have, technical 
assistance, which I mentioned to Ranking Member Rogers earlier, 
to create a technical assistance program so we can then give 
them more and better assistance to help them.
    Mr. Pascrell. So logistics is working with every State, and 
it is safe to say--or it is not--that the folks that come to 
this training system are going to be the same people you work 
with, God forbid, if a tragedy or disaster occurs; is that 
correct?
    Mr. Smith. That is correct, Congressman.
    Mr. Pascrell. So they know ahead of time and you know ahead 
of time and so we don't waste downtime.
    If I may ask one more quick question, the administrator 
established a program, I think this is what it was called, 
preposition standardized emergency equipment, in at least 11 
locations throughout the country to ensure what we would 
consider critical assessments were made available to local, 
State, and Tribal governments. Has the directorate been 
involved in the program? What is the status of the 
Congressional mandate? We mandated that the FEMA coordinator 
establish that program. If they haven't lived up to the 
Congressional mandate, I want to know why.
    Mr. Smith. Congressman, the program that you mentioned is 
called the Preposition Equipment Program, PEP. That program 
resides under our response directorate. What I can do is have, 
through our legislative liaison office, have that directorate 
provide a response to your question.
    Mr. Pascrell. So you don't know whether they have lived up 
to the mandate or not?
    Mr. Smith. I can't answer that, but we can get an answer 
for you.
    Mr. Pascrell. Because that is a pretty important program. 
Prepositioning resources is critical. I would say to the 
Chairwoman, I would like to know what the answer to that 
question is, if I may.
    Thank you.
    Ms. Richardson. It appears, based upon the time that we 
have, there can be a second round of questions if Members are 
interested. I have a few questions, if there are no objections.
    Mr. Smith, I would like to come back to more specifically 
what my question was. I asked you specifically what has been 
done to learn from what occurred, for example, in American 
Samoa to ensure that we don't have those same situations. Your 
response to me was, well, you know, we have had meetings; 
people have come together. That is not what I am asking. I am 
very confident that there has been a military assessment, pros 
and cons: What are some of the things we need to do?
    My specific questions were very detailed and I think these 
questions have to be answered and need to be answered all 
across with anyone we work with. Otherwise, we will have the 
same problems again.
    Have the airports been evaluated? This was a problem in 
American Samoa, and it was a problem in Haiti. It is a repeated 
problem. As we work to move logistics, it is important when 
there is a disaster, it is important to know the status of the 
airport, if certain runways are unavailable, what airlift 
capabilities do they have. Has there been an assessment of all 
of the airports?
    It is a very simple question. What are the planes and their 
capabilities and what is their availability?
    When we were in this situation of America Samoa, we were 
told that we would need to truck up to San Francisco the 
supplies, and then a plane leaves once a week or something like 
that. You already know that with logistics, so there should be 
a plan that is available for every single location that should 
say: When are the planes going? What are the planes? Do the 
planes have the capability to off-load the equipment? All of 
these things are questions. There is no reason why we should be 
waiting until a disaster actually happens to know what we can 
do.
    What are the previous debt obligations with various people, 
whether it is American Samoa or other particular States that we 
are working with, and what happens if the debt is getting in 
the way in terms of the actual decisions? What is the 
community's distribution?
    I ran into with American Samoa that initially FEMA began to 
distribute items in the village and what happened was they were 
going to the leader. The leader of the village would bring in 
their family, and the family would pick and choose what they 
wanted, and then they would stick outside what was left for 
everybody else. Because that was such a problem, then FEMA 
switched midstream and began having people come directly to a 
site to pick up the items and that way they could ensure that 
all of the people in a particular village were receiving 
things, as opposed to the village leader.
    There were just problems after problems after problems. My 
question is: What specifically has been done with those items 
that I have mentioned on more than one occasion to prepare for 
other locations?
    Mr. Smith. Thank you, Madam Chairwoman. I better understand 
your question now.
    There are numerous functional responsibilities resident in 
the question that you have. But the bottom line is that this 
effort is being led by our Region 9 out in Oakland, California. 
They are developing a region catastrophic response plan. What I 
would ask is that we touch base with Region 9 to get the status 
of the lessons learned, as you mentioned, and where they are in 
addressing those issues, and then what is the breadth of the 
plan that they are putting together under the catastrophic plan 
scenario to address these issues for the next American Samoa. I 
would ask you to allow us to get back to you through our region 
on what that plan is.
    Ms. Richardson. Okay, but I would also stress it is not 
just about Region 9. That is where it happened, but this could 
be something that could happen anywhere.
    Mr. Irwin, coming from a more volunteer organization, I was 
expecting a different response from you; and I was a surprised 
when you mentioned the problem of coats and that kind of stuff 
being accumulated and then not being properly used or listed in 
the system.
    Let me speak very frankly to you, sir. There is a big 
difference between what Government agencies might say that 
people need versus my constituents who were on the phone with 
their relatives who were saying, we are not getting the sheets, 
we are not getting the pots and pans, we are not getting the 
tennis shoes and the water. I rarely use this word, but I think 
it is really shortsighted to think that we are going to have 
some sort of system that is suddenly going to prohibit regular 
Americans, given a disaster, to not want to, for the farmer, as 
you said, to not want to drop off the box of coats and blankets 
and so on. Because there is a clear disconnect between what 
FEMA might be saying we need to receive and what the State and 
local governments might be saying we need and then for people 
who are on the phone with their loved ones in Mississippi or 
Louisiana or American Samoa.
    So I was very surprised with you being a part of a 
volunteer organization that you would even imply, in my opinion 
what you said, and maybe you want to rephrase it, the role of 
how volunteers would be engaged. Because I think they should be 
an equal partner and there needs to be a plan for how these 
people are being utilized, and I think it is a huge mistake to 
only rely upon the Red Cross. There are some people who trust 
and have great confidence in their process, and there are 
others who do not. So we have to have these other mechanisms. 
Would you like to respond to my comment?
    Mr. Irwin. Yes. I'm sorry if I was unclear. I did not mean 
to say that we do not want those donations. During Katrina, our 
Convoy of Hope, many times the truckload showed up at our 
points of distribution and did not know where it was coming 
from or why it was there and who organized it, and we made use 
of it very well.
    I think the system's intent is to be able to do that. We 
don't want to stop the compassionate hearts of the American 
people from giving. It doesn't matter how big or small, we want 
to be able to direct those so it is used properly and that it 
does meet the needs where the need is. I think the system needs 
to be robust to do that, and I think we are working on that in 
partnership with FEMA and with Aidmatrix, but there is more 
work that needs to be done. Like I said, it is not the only 
tool that we use to meet the needs of everyone.
    If I sounded like I didn't want to take those donations, we 
do want those. Every organization is looking for more.
    Ms. Richardson. Okay. I am going to close and defer to the 
Chairman.
    I found exactly the opposite. I was on the phone. I am not 
just talking about what someone said to me. I witnessed this 
myself where we were working with FEMA. We said, ``We had X 
amount of items.'' We first asked the Governor what items were 
needed. The people pulled together and volunteered the items; 
and then we had FEMA who said, ``No, we don't need these.'' 
Then the people were hearing the complete opposite from their 
family members.
    So I would urge you as a representative of this group is 
that clearly there is more work that needs to be done to 
understand generally what FEMA may think people need--water, 
soap, whatever it is--and then understanding that there has to 
be a system in place that for the real world of what the people 
who are experiencing and the background rural communities, as 
they are communicating what they need, how we utilize those 
goods and get them to them. I think you are an integral role 
that needs to help to make that connection.
    Mr. Irwin. I agree. We definitely want to work stronger. 
National VOAD and member agencies, that is their heart, is to 
take care of the need wherever it may be. That is what they do 
every day, day in and day out. They are trained to do it, and 
they are the best at it, and I am glad to be a part of it. Any 
work, any partnership that we can do along with FEMA and with 
Government organizations, State, wherever it may be, we want to 
meet the needs of everybody.
    Ms. Richardson. I now recognize the Chairman for as much 
time as he may need.
    Mr. Thompson. Thank you very much, Madam Chairwoman.
    Ms. Zimmerman, what is FEMA's plan going forward with 
Aidmatrix, this program? Are you planning to put it out for 
competitive bid at some point, or do you know at this point?
    Ms. Zimmerman. Yes. At this point, we are doing the 
assessment of the products of the National Donations Management 
Network. The contracts that we currently have, the agreements 
with Aidmatrix Foundation, will expire in July 2011. As we are 
working with our partners that are currently using the tool, we 
are getting that assessment to see if it is something we need 
to go forward with. If it is something, we will go out for 
request for proposal for additional vendors, for people to do, 
sometime after the first of the year.
    Mr. Thompson. January, 2011?
    Ms. Zimmerman. Correct.
    Mr. Thompson. Thank you.
    The experience with DHS overall is that, generally, once we 
enter into a contract, we generally stay with individuals, that 
that review is sometimes cursory; and we are in the process of 
looking at a number of contracts that have cost significant 
money with minimal benefit in terms of product. So I would 
suggest to you that if we are spending a lot of time looking at 
this system then I would hope that it would allow an 
opportunity for the public sector to come back and 
competitively bid it. That is just my experience on the 
committee.
    Mr. Smith, you talked about trailers a little bit. Since I 
am partially involved in the trailer situation, given my 
Katrina experience, I need you to explain to me that FEMA has 
taken the position by storing units in Hope, Arkansas, and 
Selma, Alabama, you can deliver trailers within 36 hours 
anywhere in the country?
    Mr. Smith. Mr. Chairman, the 36-hour delivery time frame 
concerns those areas east of the Rockies. Through the Midwest 
floods and all of the incidents that we have had in the past, 
that has been our metric. The sites that we have established 
now going forward, being Cumberland, Maryland, and Selma, and 
we do have one in Hope, but as we continue to sell those units 
in Hope, we will eventually close that site. So our metrics 
tell us, based on our previous incidents, that we can deliver 
from those two locations, from Selma or Cumberland, Maryland, 
to anywhere east of the Rockies.
    Mr. Thompson. Okay. What about the people west of the 
Rockies?
    Mr. Smith. That is a different issue that we are 
addressing. Our concept right now is to buy local. Because, 
particularly in California, there are different standards for 
manufactured homes, manufactured housing, that are not the same 
for east of the Rockies. So with the previous level of usage, 
it is not economically feasible for us to keep that type of 
inventory on hand. There is a robust market out there west of 
the Rockies that meet those standards, and our goal is to buy 
those off the lot when the time comes.
    Mr. Thompson. If you could--because our system overbought 
during Katrina--can you provide the committee with FEMA's 
strategy for how many units they will keep on hand, what is the 
maintenance and operation plan for those units while they are 
on hand, and what is the life expectancy of a vacant unit? And 
whether or not there are any health checks on units that are 
stored.
    You know, we had the whole issue behind some of those units 
and if you are storing them in Selma, Alabama, there are 
significant issues with heat and humidity. So I would suggest 
that we have some way of saying whether or not those units 
should be provided to the public or not. I think we actually 
put some language in law to that effect. But I would love to 
see where that happens to be.
    The fact that some of the units that had been condemned 
ended up back in our system during the oil spill causes me 
great concern. I would hope that whatever is required to close 
that loop so that items that have been identified will be 
destroyed so we can't come back and potentially create some 
other liability, either on the part of the Government or just 
some health issue with the company.
    Lastly, Mr. Smith, can you tell me why the on-end costs 
with respect to this supply chain management system as 
identified by the Inspector General is so high?
    Mr. Smith. Yes, Mr. Chairman.
    On-end costs, as mentioned, is really when we get to 
sustainment. We have end-placed all of the new modules and 
systems that we are putting in place in the system. Right now, 
there are only two modules in place. When it is all done, there 
will be five. There are costs associated with maintaining all 
five of the systems once they are in place.
    Then you have the life cycle, what we call refresh or 
license renewal for all of the systems that we have in place. 
We started, as previously mentioned, putting this system in 
place in 2004. It is time for the manufacturer to refresh that 
system, to upgrade it. There is a cost associated with that.
    Then there is also a cost with migrating the data system 
from a FEMA data system to a consolidated DHS data center.
    So all of those costs are resident in that cost that spikes 
during that period. But, after that, after the refresh and some 
of the items that are one-time costs associated with that, that 
cost will go down or level off.
    By the way, in working with our CIO, with the program cost, 
the overall program cost that we have, the benchmark for O&M 
costs can normally run to 48 percent of the total cost. The 
cost that is associated with the system that we have now is 
running around 30 percent. So it is significantly lower than 
what the benchmark or standard cost is for a system this large.
    Mr. Thompson. I don't want to get into he said, they said, 
Mr. Jadacki. You heard the comment about O&M costs, and you 
kind of highlighted that in some of your comments.
    Mr. Jadacki. We think there are significant costs for a 
number of reasons. One of the problems it has taken the system 
so long to develop, it was like a one-time deal, and it took a 
couple of years. You certainly have to look at the refresh 
activities for several years down the line. The fact that they 
started this thing in 2004, and now we are 6 or 7 years later, 
a lot of the components get antiquated. A lot of the servers 
get antiquated. There are upgrade costs. Yes, they are building 
the system, but just given the fact that it has taken so long 
to build, you are going to get higher costs.
    Now, I'm not an IT auditor, so I don't know about the 48 
percent versus the 30 percent, but I do know from my experience 
working as a CFO at FEMA, that there are maintenance costs. So 
I don't know. But the fact is, as the system is brought on-
line, things are becoming obsolete and antiquated, so it is 
like a constant catch-up game.
    Mr. Thompson. So how far are we behind on the system?
    Mr. Jadacki. I think the system is pretty much on time. 
There have been a couple delays, but it is a pretty tight 
schedule that they have. We have had some discussion with FEMA 
on don't wait until the very end when the system is implemented 
to do your validation and verification. I think FEMA has taken 
that to heart and they are actually doing the IV&Vs as the 
modules are developed, which is a good thing.
    The other item, too, they are working closely with their 
chief information officer. We have found some contracts in 
FEMA, for example, the National Flood Insurance Program, where 
it is being done outside of that organization, and a lot of 
critical points were not undertaken because of that. So the 
fact that they are working closely with them, again, it is a 
big ticket item. It is a big dollar amount. We have concerns 
that the thing is on track and on schedule. Again, given the 
price tag, we will keep a close eye on it. But I think that 
they are doing a better job than I have seen in some of the 
other major procurements in DHS and in FEMA.
    Mr. Thompson. Thank you. I yield back, Madam Chairwoman.
    Ms. Richardson. Thank you, Mr. Chairman.
    I have three last questions and then we can wrap up.
    Mr. Jadacki, would you say that Mr. Smith and FEMA in this 
process is on track to meet the Congressional mandate?
    Mr. Jadacki. Yes, I think they are on track.
    Again, I have worked for FEMA since--I started in 1991 when 
there was literally no logistics management system at all, and 
I have seen it evolve to where it is today. I think there is a 
big need to get a system in place and, again, working with the 
Federal partners as well as the private sector. So I think FEMA 
is on track to do it.
    Again, I am very concerned about the time line, but, given 
all of the components that go into this system and all of the 
integration with the other Federal agencies and the private 
sector, it is kind of understandable. So I think they are doing 
a good job.
    Ms. Richardson. Are there any other performance metrics 
that you would recommend that we consider or encourage?
    Mr. Jadacki. I would keep track and get periodic updates on 
just where we are on the modules as they are being developed.
    I would also talk to some of the stakeholders. Because, 
again, FEMA is a logistics coordinator, but it involves all of 
the Federal partners in a National response framework. I think 
they are doing a good job getting out to the States and locals 
because they are going to be the recipients of the logistics 
supplies that are coming through the chain and make sure they 
are on track, too.
    If we have another disaster when we are ordering 50 
truckloads of ice and somebody else is getting 50 truckloads of 
ice and somebody else is and, as a result, we are spending 
millions of dollars and just wasting it, that is a big problem. 
I think once we field test these things, as the Congressman 
from New Jersey mentioned, he thought that they did a very good 
job of coordinating in New Jersey. It remains to be seen if 
there is a truly catastrophic event where all of these plans 
and procedures and preparations with the Federal, State, local, 
and volunteer organizations, that is going to be the big test.
    Ms. Richardson. Okay.
    Mr. Smith and Ms. Zimmerman, I find it curious that the 
Donations Management and Logistics Management are run out of 
two different directorates in FEMA, even after Hurricane 
Katrina demonstrated how much the two were intertwined and how 
the problems could occur when there is not adequate 
coordination between the two offices. What efforts have your 
two offices taken to better coordinate your actions as well as 
coordinate with States, NGOs, and the private sector?
    Mr. Smith. We do work together, Madam Chairwoman. We have 
established a standard operating procedure that outlines the 
process and procedures for Donations Management. The lead for 
Donations Management resides in the recovery directorate within 
our Office of Response and Recovery, but Logistics has a big 
piece of that because I am the incident property manager. I am 
responsible for tracking the property that is associated with 
the incident.
    So if there is a decision to be made to excess this 
property or to donate it, then it is my job to make sure that 
the books, the accounting process, to make sure that those 
items are transferred from Federal records, taken away from our 
records, are done properly. So we do work on a continuous basis 
together. We also provide them technical assistance on the 
Federal management regulations as it relates to handling, 
managing, and disposing of Federal property.
    Ms. Richardson. Okay.
    Finally, Mr. Irwin, can you supply to the committee the 
partnerships, the volunteer organizations by region and by 
State that you are aware of that VOAD is engaged with? 
Specifically if you can provide us information to the degree of 
how faith-based organizations are included in that.
    Finally, my question would be what process is VOAD using to 
communicate those various partners in advance within these 
various counties and States so that way we can get ahead of the 
game and people know who they would engage with instead of, you 
know, Joe Blow Church suddenly begins to collect a bunch of 
things where they could interact with another group that might 
already be coordinating some sort of effort.
    To be honest with you, for me, as a Member of Congress, I 
have not seen a list. I am not familiar with who is doing that 
in my area, and I'm sure others would say the same.
    Mr. Irwin. I would be happy to work with the leadership of 
National VOAD to provide that for you.
    Ms. Richardson. Just to summarize, I wrote down three asks, 
not including the ones that I just provided. In summary, No. 1, 
Mr. Smith, you agree to provide how Tribal governments are 
solicited, involved, and maintained in our system and not only 
just what the State is doing but what you are doing to validate 
that that fact is happening.
    No. 2, Ms. Zimmerman and Mr. Smith, you agree to provide 
the Chairman and this committee more information on Aidmatrix 
in terms of how that system is being utilized. He went into 
great detail on this specific ask.
    The Chairman also asked a question about the trailers: How 
many have we determined potentially are needed so we can avoid 
purchasing more than what is required? What is the life 
expectancy of vacant units? Verifying that there aren't any 
health issues for what is remaining out there that we are 
selling.
    Mr. Pascrell asked a question, and I apologize, I didn't 
write down specifically what his question was. Then the two 
questions I asked. Are there any objections to providing those?
    Mr. Smith. No objections.
    Ms. Richardson. All right. Seeing that and that there are 
no further questions by the committee, I thank the witnesses 
for your valuable testimony. I am glad you finished before our 
marathon voting begins.
    Members of the subcommittee may have additional questions 
for you, and we ask you that you respond in an expeditious way 
in writing to those questions.
    Hearing no further business, this hearing is adjourned.
    [Whereupon, at 11:35 a.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

Questions From Chairwoman Laura Richardson of California for Eric Smith
    Question 1. What specific steps has FEMA taken to enhance the 
logistics capabilities of Tribal governments?
    Answer. FEMA's newly revised Tribal Policy was signed by the 
administrator on 29 June, 2010, and is intended to guide all personnel 
responsible for engaging in consultation and coordination with 
Federally recognized Tribal nations. The policy calls for FEMA to 
examine ways in which it can strengthen the nation-to-nation 
relationship with American Indian and Alaska Native Tribal governments, 
a goal to which FEMA has committed itself through the policy. This 
revised policy includes the development of an implementation plan to be 
utilized in assisting Tribal governments with their emergency 
management needs in all major FEMA program areas.
    FEMA is in the process of drafting an implementation plan that will 
set forth objectives to be achieved by addressing action areas 
including planning, resource management, coordination and monitoring, 
and training and exercising.
    FEMA is also in the process of hiring Tribal liaisons in each of 
the Regions, who will also work on private sector issues, to provide 
communications, planning, and implementation support to Tribal nations.
    Question 2. Has there been an assessment of all airports to 
identify their ability to support FEMA's logistics operations? For 
example, have airports been evaluated to know which runways are 
available, and what are the airlift and offloading capabilities?
    Answer. The FEMA Region IX Office has tied facility assessments 
into on-going coordinated Federal/State/private sector catastrophic 
planning efforts. To date, the Region IX Office has compiled 
information that is included in the concept of operations plans to 
support Guam, Hawaii, Northern California, and Nevada. On-going efforts 
include Southern California where we have assessed the capability of 26 
separate Federal/State and private sector facilities which includes the 
capabilities of local air fields, sea ports, and private sector 
locations. It is important to note that the Department of Defense (DOD) 
and Department of Transportation (DOT) currently make available very 
detailed airport facility assessments for our planning purposes. During 
a response operation, FEMA coordinates with DOD and DOT regarding 
airlift and offloading capabilities.
    Question 3. Does FEMA track the previous debt obligations of States 
and territories accrued under the Stafford Act? What is the process to 
provide aid if a State or territory raises concerns over previous debt 
that may inhibit or delay decisions to request Federal assistance under 
the Stafford Act?
    Answer. Under the Stafford Act, the State assumes the 
responsibility for all costs when its Governor signs the FEMA/State 
Agreement. FEMA's Headquarters' Debt Establishment Unit tracks billed 
State debts. FEMA's Chief Financial Officer does not deny future 
assistance due to outstanding or delinquent debts.
    For programs such as the Other Needs Assistance Program, FEMA 
issues monthly bills to a State. For other forms of assistance, such as 
a Mission Assignment cost share, audit findings, and grant closeouts, 
FEMA sends a State bill when it is requested from FEMA Headquarters, 
Regions, and/or program offices. Each bill is monitored on a monthly 
basis for payment activity and any outstanding amount owed is billed 
monthly. Should the State not fulfill its debt obligation, FEMA sends 
it a reminder letter on its balance due or funds may be offset to 
satisfy its debts. The Office of Chief Financial Officer is working on 
a process to submit delinquent State debts to the Department of 
Treasury for offset.
    Question 4. What are the lessons learned from FEMA's response to 
the 2009 tsunami that struck American Samoa and how will they be 
incorporated into the Catastrophic Response Plan for Region IX?
    Answer. Following the 2009 earthquake/tsunami that struck American 
Samoa, FEMA examined its response to that disaster as well as its 
response to Typhoon Melor, which simultaneously threatened Guam and the 
Commonwealth of the Northern Mariana Islands. A few of the significant 
lessons learned were:

    1. Additional incident management training is needed at all levels 
        of government. In response to this lesson, FEMA initiated 
        training on the National Incident Management System, the 
        Incident Command System (ICS) and FEMA operations to 
        governmental staff in American Samoa and other Federal agency 
        staff in Oakland.

    2. There is a need to rapidly deploy Staging Area Teams to Hickam 
        AFB in Hawaii and other impacted jurisdictions (e.g., Pago Pago 
        Airport in American Samoa, B Won Pat Airport in Guam). As a 
        result of this need, FEMA's current logistics protocol calls 
        for the rapid deployment of a Staging Area Team to Hickam AFB 
        for similar responses outside of the continental United States.

    3. There is a need for standardized and fully communicated time 
        phased resource deployment lists within the interagency, 
        intergovernmental community.

    4. There is a need for specialized resources to respond to 
        disasters in the Pacific Area. As a result of the 2009 Tsunami, 
        FEMA has added specialized tents such as Celina tents and 
        Sprung Structures to its resource list, to be used as needed. 
        Also, FEMA is developing Standard Operating Procedures and 
        guidelines to streamline and expedite the use of its Permanent 
        Housing Construction program. Unlike in jurisdictions in 
        continental United States, in Pacific Area jurisdictions, we 
        cannot effectively transport hard-walled structures, such as 
        travel trailers, mobile homes, or modular classroom units. The 
        Pacific Area jurisdictions are surrounded by water. Resources 
        cannot be delivered via ground transportation methods used in 
        the continental United States. Therefore, we utilize soft-sided 
        structures such as Celina tents and Sprung Structure tent 
        units. The Celina tents are small and placed on an individual 
        family's property. They are used in lieu of hotel/motel 
        resources to house individual families. By contrast, Sprung 
        Structures are larger and are designed to provide a semi-
        permanent classroom facility in place of using heavy modular 
        trailer structures.

    Incorporating the results of lessons learned, the FEMA Region IX 
office has multiple catastrophic plans for California, Nevada, Hawaii, 
and Guam. The Region IX office plans to develop a catastrophic plan for 
Arizona later in fiscal year 2011. Each of these catastrophic plans 
describes the unique background conditions and threats for each 
jurisdiction, as well as the rules of engagement between the State/
territory and the Federal Government. Each plan specifies the use of an 
ICS Unified Command organization for the Senior Leader Unified 
Coordination Group (UCG) construct as outlined in the National Response 
Framework. This construct was used successfully in American Samoa to 
establish and implement joint Territorial/Federal objectives, 
strategies, and tasks.
    For fiscal year 2011, FEMA's headquarters has proposed that each 
regional office develop a single over-arching Concept Plan (CONPLAN), 
addressing predictable requirements or commonality among all operations 
(e.g., medical, mass care, logistics). The Region IX office will 
address the resource movement challenges experienced during the tsunami 
response through the Region IX CONPLAN.
  Questions From Chairman Bennie G. Thompson of Mississippi for Eric 
                                 Smith
                regarding temporary housing units (thu)
    Question 1. Please provide the committee with FEMA's strategy for 
how many THUs will be kept on hand?
    What is the maintenance and operation plan for stored units?
    What is the life expectancy of a vacant unit?
    Are there any health checks on units to ensure that they do not 
injure or harm the public once they are distributed?
    Answer. FEMA's current target baseline inventory is designed to 
ensure that sufficient temporary housing units are available for 
immediate response while other procurement and production activities 
ramp up to meet the full requirements of the event. FEMA's current 
target baseline inventory of 4,000 units includes traditional and 
Uniform Federal Accessibility Standards (UFAS) manufactured homes, park 
models, and travel trailers. FEMA maintains manufacturing contracts 
which may be utilized to produce additional units. FEMA's 4,000 unit 
target inventory composition is as follows:
    UFAS Manufactured Homes: 125;
    Manufactured Homes: 1,125;
    UFAS Park Models: 225;
    Park Models: 2,025;
    Travel Trailers: 500;
    Total: 4,000.
    Upon receipt, units are logged into the property accountability 
system of record and prepared for long-term storage. This includes 
blocking and leveling units and ensuring all building apertures are 
weather-tight. Each unit is inspected once every 90 days. The 
inspection looks for any sign of storage-related damage (water leaks, 
wind damage, material failures, etc). Units are logged into the 
Assurance Monitoring Operational Status (AMOS) system which tracks 
inspection dates, formaldehyde levels, and readiness status for each 
individual unit. This system identifies units by location and can be 
used to enhance inventory rotation and utilization. For units requiring 
maintenance, FEMA uses a combination of factory service and FEMA 
personnel, depending on the extent of work required, number of units 
requiring work and the age of the units.
    FEMA does not have a reliable life expectancy standard for storage 
of vacant units. FEMA takes measures, as discussed above, to reduce 
storage-related damage as much as possible and to quickly identify and 
address storage-related damage as soon as possible to reduce the 
expense of having to repair subsequent damage, and to ensure that only 
safe, high-quality units are provided to disaster survivors.
    Manufactured homes are built to United States Department of Housing 
and Urban Development (HUD) standards in HUD-certified plants, while 
park models are built to American National Standards Institute (ANSI) 
standards and travel trailers are built to National Fire Protection 
Association (NFPA) standards.
    Currently, all units produced for FEMA are subject to additional 
FEMA construction specifications. In addition, FEMA requires that all 
vendors contract with an industry approved Indoor Air Quality (IAQ) 
firm to test all units and all procured units meet strict IAQ 
manufacturing specifications currently established for formaldehyde 
levels of less than 0.016 parts per million (16 ppb). FEMA verifies 
compliance with this specification by requiring vendors to provide 
certified air quality test results for each unit prior to FEMA 
acceptance. FEMA also retains a separate contractor to perform 
independent quality assurance tests to ensure the validity of the air 
quality of tests performed by vendor subcontractors.
    At the time a unit is dispatched, the certification sticker is 
verified to be in the unit with the visible IAQ values to ensure that 
the formaldehyde level is at or below the level acceptable by the State 
to which the unit is being deployed. To further insure the safety of 
units, as part of FEMA's 90-day inspection cycle, each unit is checked 
for moisture intrusion that could promote the growth of mold. If mold 
is found, appropriate remediation actions are taken.
    Question 2. Has FEMA evaluated the performance of Aidmatrix and the 
National Donations Management Network (NDMN)? If so, what have the 
assessments of the Aidmatrix cooperative agreement revealed about the 
performance of the National Donations Management Network (NDMN)?
    Who acts as the overall executive administrator of the NDMN during 
a disaster affecting several States, in order to mitigate confusion and 
decrease waste of unused resources?
    Answer. Based upon the system requirements as established by FEMA 
in the original Cooperative Agreement award in 2006, Aidmatrix has 
successfully completed the production of all of the components that 
currently make up the NDMN. The components and their respective release 
or roll-out dates were as follows:
    Donated Goods module--June 2007;
    Financial Contributions module--December 2007;
    Warehouse module--June 2008;
    Volunteer module--June 2008.
    The various NDMN components have been implemented in approximately 
20 disaster operations since mid-2007 when the NDMN first became 
operational. Feedback from the users has been generally positive. 
Suggestions for constructive changes and enhancements have been 
welcomed from the beginning, with a focused effort on reviewing and 
implementing enhancements on a bi-annual basis.
    The value of donated resources actually received through the NDMN 
to date is approximately $4 million. Money donations are encouraged by 
the system, but are not tracked. Referrals for money donations are made 
directly to listed non-profit organizations.
    In addition, FEMA implemented key programmatic steps to exercise 
NDMN, share lessons learned, and monitor the overall performance of 
NDMN. These steps include the following:
  <bullet> FEMA conducts monthly stakeholder calls with regular 
        participation of approximately 100 stakeholders.
  <bullet> Weekly FEMA-led program coordination calls with Aidmatrix, 
        and National Voluntary Organizations Active in Disaster (VOAD) 
        leadership; and FEMA Regional Voluntary Agency Liaisons (VALs).
  <bullet> Special issue-focused calls with Regional VALs, NEMA 
        Preparedness Committee, National VOAD, as needed.
  <bullet> Monthly NDMN training webinars for stakeholders with built-
        in feedback mechanisms.
  <bullet> Monthly FEMA-led Regional exercises engaging States' 
        emergency management and voluntary agencies that include built-
        in feedback mechanisms, verbal and written.
  <bullet> Special post-disaster lessons-learned debriefings focused 
        entirely on the performance of NDMN.
    The FEMA Program Office has in place several internal controls to 
review the performance of Aidmatrix:
  <bullet> Bi-annual face-to-face program review meetings at the 
        Aidmatrix office or in Washington.
  <bullet> Regular COTR review of monthly invoices.
  <bullet> Quarterly status reports.
    To date, there have been no significant performance concerns in 
terms of the design or implementation of the NDMN. There have been 
conflicts between Aidmatrix and some of the large non-profit 
organizations over branding and solicitation of donors. FEMA is working 
closely with all partners to address their concerns and improve the 
NDMN.
    At Chairman Thompson's request, the OIG conducted a review of the 
NDMN in 2009, in which it indicated that recent performance of the NDMN 
appeared to be working smoothly and that it would continue to monitor 
the NDMN as part of its on-going disaster oversight.
    FEMA serves as the overall National Program Manager for NDMN.
    Although NDMN is largely a State-centric system, in high-visibility 
events when affected States may be overwhelmed with offers and short of 
staff, FEMA in coordination with the National VOAD can provide 
National-level coordination in direct support of the affected States. 
It should be noted that even when States are overwhelmed steps are 
taken to support the affected States by bringing in other FEMA-trained 
State Donations Coordinators, through the Emergency Management 
Assistance Compact. If needed, FEMA can also deploy FEMA Donations 
Specialists, as well as Aidmatrix technical assistance.
    In a catastrophic situation, when the National portal of NDMN may 
be activated, FEMA and National VOAD jointly manage the National 
portal. The joint FEMA-National VOAD role is to:
  <bullet> Adjudicate large offers of donations received on the 
        National NDMN portal by telephone and match them up with the 
        identified needs of the State or National VOAD members.
  <bullet> Increase communications by holding daily conference calls 
        with the affected State donations coordinator/s and their 
        Donations Coordination Teams, including several voluntary 
        agencies.
  <bullet> Monitor the effected State NDMN portal for postings and 
        provide technical support to the regions and the affected 
        States.
Question From Honorable Bill Pascrell, Jr. of New Jersey for Eric Smith
    Question. What is the status of FEMA's implementation of the 
Congressionally-mandated Pre-Positioned Equipment Program (PEP)?
    Answer. The Pre-Positioned Equipment Program (PEP) was established 
after September 11, 2001, to provide National standardized equipment in 
strategic locations that can be used to reconstitute capabilities for 
first responders to support disaster operations. It was originally 
located in the Department of Justice's Office of Domestic Preparedness. 
The program moved to the Department of Homeland Security and now 
resides in FEMA's Office of Response and Recovery.
    Section 637 of the Post-Katrina Emergency Management Reform Act of 
2006 (Public Law 109-295) states: ``The Administrator shall establish a 
prepositioned equipment program to preposition standardized emergency 
equipment in at least 11 locations to sustain and replenish critical 
assets used by State, local, and tribal governments in response to (or 
rendered inoperable by the effects of) natural disasters, acts of 
terrorism, and other man-made disasters.''
    There are currently ten PEP sites throughout the United States. 
Each of the ten PEP sites contain personal protective equipment, 
medical supplies, decontamination equipment, detection equipment, 
interoperable communications equipment, and other equipment that can be 
used to supplement or reconstitute the capabilities of first responders 
to support disaster response operations. Each PEP site is carefully 
selected to ensure the most strategic deployment location possible with 
access to major transportation routes and airports.
    The current ten PEP site locations include:
    Middletown, NY;
    National Capitol Region/Frederick, MD;
    Columbia, SC;
    Atlanta, GA;
    Dallas/Fort Worth, TX;
    Salt Lake City, UT;
    Kansas City, MO;
    Sacramento, CA;
    Seattle, WA;
    Las Vegas, NV.
Questions From Chairwoman Laura Richardson of California for Stephen A. 
                                 Irwin
    Question 1. Please provide the subcommittee a list of the volunteer 
organizations, including faith-based organizations, by region or State 
that National VOAD is engaged with.
    Answer. National Voluntary Organizations Active in Disaster 
(National VOAD) currently is engaged with 55 State and territory VOADs. 
National VOAD has attached a membership directory containing the most 
current list of our extended network of member organizations.*
---------------------------------------------------------------------------
    * Document was retained in committee files.
---------------------------------------------------------------------------
    Question 2. What process does National VOAD use to communicate with 
its various State and local partners in advance of a disaster so 
donations can be easily collected and moved when a disaster does occur?
    Answer. National VOAD and its individual member agencies work 
closely with local and State non-profit organizations, State 
Governments, FEMA, private businesses, and other stakeholders on 
education, planning, management, and transportation of donations 
before, during, and after disasters. Among the processes we support to 
improve donations coordination in advance of a disaster are regular 
meetings and workshops at our annual conference, as well as periodic 
meetings of our Donations Management Committee. It is in these forums 
among others that the non-profit community works through the technical 
details of disaster donations management, each agency offering its 
expertise and support. The committee includes the stakeholders 
mentioned above, as well as subject matter experts on logistics, 
software, transportation, and so forth, as and when needed. When a 
significant disaster has just occurred, or is about to occur, the 
Donations Management Committee organizes daily or weekly conference 
calls on collection, distribution, and transportation of donated goods 
for that disaster. Committee members work alongside National VOAD staff 
to collect information regarding the affected community's needs and any 
current shortfalls around donations management. Each National VOAD 
member agency is expected to be involved locally with the broader 
network of State and Tribal partners along with the faith-based 
community to develop contingency plans for any situation through COADs 
(community organizations active in disaster) that focus on local 
issues. As these relationships are built locally, the skill-set of each 
organization is shared to the whole and in that way trust levels are 
developed and the strengths of each are maximized when there are needs.
    In-kind donations during a disaster can generally be broken down 
into two categories: Unsolicited donations and directed donations. The 
National Donations Management Network (NDMN) provided by FEMA and 
supported by National VOAD is intended to ease the problem of 
unsolicited donations and help prevent the notorious ``second 
disaster'' that often occurs when mass quantities of unexpected, 
unsuitable, or merely undesignated goods arrive in a disaster zone. 
While the NDMN is primarily focused on the State's role in managing 
these donations, no similar complementary system is in place to broker 
the overflow of donations between and among the disaster NGO's 
themselves. The NDMN cannot solve this problem, nor was that ever its 
intention or mandate. The Board of Directors of National VOAD has 
therefore pledged to find a solution that can be used by the NGO sector 
to coordinate our part of the disaster donations picture in the United 
States. We feel the management of charitable contributions is a primary 
responsibility of non-profits, and we are ready and willing to assume 
our rightful share of the burden of managing disaster donations.
    Besides inter-agency and stakeholder communications, the primary 
role of National VOAD with regard to donations management is in 
fostering unified messaging to the general public on how best to help 
our country respond to disasters. Working with our network of partners, 
National VOAD agencies have adopted the following statements on 
donating and volunteering in times of disaster.

``During times of disasters Americans respond with tremendous 
generosity, however in order for your donations to make the biggest 
impact there are some important tips to follow:
``Financial Contributions are Preferred: This allows relief 
organizations to purchase exactly what items are needed to assist in 
the response and recovery efforts. Funds will also provide direct 
victim assistance.
``Confirm the Need Before Collecting: Donors should be wary of anyone 
who claims that `everything is needed.' Many groups have been 
disappointed that their efforts and the goods they collected were not 
appreciated. A community hit by disaster, however, does not have the 
time, manpower, or money to sort and dispose of unneeded donations. Get 
precise information and confirm the need before collecting any donated 
goods or used clothing.
``Volunteer Wisely to Help Others: In a community struggling to respond 
to and recover from a disaster, an influx of unexpected or unneeded 
volunteers and donations can make the process even more difficult. 
Before traveling to the disaster area to help, learn where and when 
your skills will be needed. Discuss with volunteer organizers how your 
needs for food, water, and shelter will be met while you are 
volunteering.''

    Question 3. Please discuss the extent to which National VOAD member 
organizations have had credentialing problems that hindered National 
VOAD volunteers or donated supplies from working in, or entering a 
disaster area.
    Answer. The answer to this question varies depending on which 
National VOAD agency you ask. It is fair to say that, given the 
complexities of access to disaster zones, the number of hindrances is 
low. Ideally, there would never be a hindrance for people trying to do 
good works, but certain complicating factors are endemic to disaster 
environments and to the structure of our National response efforts.
    The experience of our largest and most well-known agencies is that 
they have, for the most part, developed solutions that minimize 
problems of access. Training of volunteers, sorting them into teams 
appropriate for specific disaster situations, and making first-contact 
with command and control entities (usually a State or local emergency 
management agency,) are all methods major agencies employ to ensure 
that their volunteers and supplies get where they are needed most. 
Access is often controlled at the ground level in immediate response 
situations by personnel who may be unfamiliar with the full breadth of 
agencies that assist during disaster, but can recognize the logos of 
major agencies and will wave them through a checkpoint. Smaller 
agencies, or even large agencies that are arriving from a different 
part of the country, are not always granted such immediate access. The 
solution here is education and pre-disaster relationship building, the 
focus of much of the work of the VOAD movement.
    Even for the major agencies, problems of access can still occur 
despite the most specific and official credentialing efforts. It is a 
tenet of U.S. disaster policy that the State is in charge of the 
response, thus each State decides who is given access at each disaster. 
National VOAD, by supporting the State and community VOADs, greatly 
increases the chances that our agency leaders at the local and State 
level can forge the pre-disaster relationships that open doors and 
grant access when an actual disaster does strike.
    Speaking on behalf of Convoy of Hope, we have had at times issues 
concerning getting into areas as a result of the lack of knowledge of 
who Convoy is and what we represent in the way of help and 
capabilities. For example, some States, such as Louisiana, have what is 
called a re-entry program that applies to organizations that are 
responding to an event. This re-entry program requires that an 
organization apply for identifying placards that can be placed on 
vehicle dashboards to speed re-entry to a disaster area. However, re-
entry programs are not uniform to every State and the programs 
themselves are not always well-publicized. The requirements and 
standards expected of each organization in such a program are also not 
uniform State to State. National VOAD agencies respect the need for 
systems that will coordinate the efforts of many diverse organizations, 
and we would welcome the opportunity to work on comprehensive solutions 
that would give us the best chance of carrying out our missions.
    A ``National disaster credentialing system'' is a topic frequently 
discussed in our sector. To date, the complexities and logistics of 
such a system if applied to individual responders have prevented us 
from moving forward with designing a solution. A system that 
credentials the agencies themselves, perhaps through National VOAD 
membership, would depend for its success on the States knowing and 
accepting the credentials during every event, and on a cost/benefit 
analysis of the system: Does it result in improved service, or faster 
service, for disaster survivors?
Question From Chairman Bennie G. Thompson of Mississippi for Stephen A. 
                                 Irwin
    Question. What has been the experience of National VOAD member 
organizations with FEMA's National Donations Management Network and the 
Aidmatrix System? Can the systems be improved in anyway?
    Answer. At present, National VOAD has pledged to continue to 
support FEMA's National Donations Management Network (which uses 
technology and services provided by the Aidmatrix Foundation), even as 
we begin the process of establishing a new system we believe will be 
better suited to supporting the Nation's non-profit disaster response 
agencies. We understand the utility of the existing NDMN to State 
emergency management agencies and especially to several of our own 
National VOAD agencies, some of whom have made significant investments 
of time and energy in developing the current system. We extend our 
grateful appreciation to Congress for its role in creating and 
maintaining the NDMN. National VOAD would like to offer the committee a 
brief overview of our experience with the Network, followed by a 
description of where we think our sector is heading on this issue.
    Hurricane Andrew in 1992 is often considered the basis and 
reference when describing challenges in donations management. Following 
the storm, numerous parking lots in South Florida became filled with 
mounds of donated goods, all unwanted and unused, because no scalable 
distribution mechanism existed to handle the amount of product donated 
by a concerned American public. The following year, a National steering 
committee was developed to address this issue. Members of this 
committee came from FEMA and other Federal agencies, the voluntary 
organizations, State and local governments, as well as business and 
industry. The committee agreed on key planning assumptions and 
recommendations for States to manage unsolicited goods. These elements 
became the initial National Donations Management Strategy (NDMS).
    The creation of the NDMS was intended to help in deterring 
uninformed but well-intentioned donors, to establish management 
controls for overwhelming quantities of goods, and to create programs 
within key organizations to tap their skills and abilities to managing 
these unsolicited/undesignated goods. The attempt to better manage and 
make use of in-kind donations has, viewed overall, been successful. 
Training that builds off the early management models is provided to 
Federal, State, and local entities through the FEMA National training 
program implemented at the Emergency Management Institute G 288. 
Additionally, States began implementing local training to establish 
local-level planning for donations management in a scaled-down version 
E-289.
    The development of a National strategy for managing donations has 
continued to evolve. As the strategy has been implemented there has 
been a visible reduction in the number of items that have been 
collected that were categorized as unsolicited/undesignated. The 
messaging, ``do not donate until you know what is needed'' has proven 
helpful in reducing the overflow of unsolicited items. The 
identification of specific agencies to be the lead agency to manage the 
goods has also proven effective.
    In the aftermath of Hurricane Katrina, however, the United States 
was overwhelmed by donations and offers of donations at an 
unprecedented level. Never before had the American people and the 
entire international community sought to contribute so much in such a 
short time. As a result, the issue of donation efficiency became a 
critical point. FEMA was bombarded with potentially useful offers, but 
found no system in place that could make them available to the National 
VOAD community. Many of the items that were received ended up sitting 
in warehouses because there was no system for sharing them with the 
organizations that needed them most. This reinforced the need for FEMA 
to establish a system that could address this new donations management 
issue and led eventually to a grant to the Aidmatrix Foundation, which 
had already been working for several years with the disaster non-profit 
community, and this grant became the root of the National Donations 
Management Network (NDMN). (As a sidenote, the system was originally 
called the Aidmatrix Network, which was changed to the National 
Donations Management Network in 2008 in response to concerns that 
``Aidmatrix Network'' as a name tended to promote the Aidmatrix 
Foundation rather than the full body of agencies the NDMN was intended 
to help.)
    The purpose of the NDMN as we have always understood it has been to 
manage and make best use of the overabundance of unsolicited/
undesignated donations that come in to the States or the Federal 
Government following a catastrophic event. The goal was to offer a 
solution that would allow State Donations Coordinators to sift out the 
needed items from the unneeded items in a virtual warehouse rather than 
on-site. The NDMN was not designed to help the non-profits manage their 
own donations. Thus, as a natural course of its development, it became 
evident over time that the principal stakeholders in the NDMN process 
were the State agencies, and not the non-profit agencies.
    National VOAD understands that FEMA has a responsibility to provide 
the States with a process (and a tool, if necessary,) for managing 
unsolicited/undesignated disaster contributions. We support that 
process and always will. At the same time, National VOAD members also 
need a system that offers our community of agencies a forum in which to 
share contributions with each other, as and when our donors give us 
permission. Our system also needs to help our agencies establish or 
reinforce our relationships with our donors. The current NDMN was not 
designed or intended for either of these activities, and this is not a 
fault of the system, but a reflection of its core purpose.
    In the end, it is our belief that charitable contributions are the 
responsibility of charities to manage, not governments. To fulfill our 
missions, the members of National VOAD need to offer donors the chance 
to give directly to the charity of their choice and establish a 
philanthropic relationship with an organization that shares their 
values. The system we establish to support these higher level goals 
will complement the National Donations Management System and enhance 
the giving opportunities available to the American people.

                                 <all>

</pre></body></html>
